<html>
<title> - ASSESSING THE RISKS, IMPACTS, AND SOLUTIONS FOR SPACE THREATS</title>
<body><pre>[Senate Hearing 113-653]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-653
 
                   ASSESSING THE RISKS, IMPACTS, AND 
                      SOLUTIONS FOR SPACE THREATS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 20, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                         U.S. GOVERNMENT PUBLISHING OFFICE
94-799 PDF                   WASHINGTON : 2015                         

_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a3d2a351a392f292e323f362a7439353774">[email&#160;protected]</a>  
     
      
      
      
      
      SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
FRANK R. LAUTENBERG, New Jersey      MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
CLAIRE McCASKILL, Missouri           DEAN HELLER, Nevada
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
MARK WARNER, Virginia                TIM SCOTT, South Carolina
MARK BEGICH, Alaska                  TED CRUZ, Texas
RICHARD BLUMENTHAL, Connecticut      DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii                 RON JOHNSON, Wisconsin
WILLIAM COWAN, Massachusetts
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       TED CRUZ, Texas, Ranking Member
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      RON JOHNSON, Wisconsin
WILLIAM COWAN, Massachusetts
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 20, 2013...................................     1
Statement of Senator Nelson......................................     1
    Prepared statement...........................................     2
Statement of Senator Cruz........................................     1

                               Witnesses

Dr. James Green, Director, Planetary Science Division, Science 
  Mission Directorate, National Aeronautics And Space 
  Administration.................................................     3
    Prepared statement...........................................     4
Dr. Edward T. Lu, Chairman and Chief Executive Officer, B612 
  Foundation.....................................................     7
    Prepared statement...........................................    10
Richard DalBello, Vice President, Government Affairs, Intelsat...    15
    Prepared statement...........................................    17
Dr. Joan Johnson-Freese, Professor, National Security Affairs, 
  U.S. Naval War College.........................................    24
    Prepared statement...........................................    26

                                Appendix

Response to written question submitted by Hon. Bill Nelson to:
    Dr. Edward T. Lu.............................................    43
    Richard DalBello.............................................    43
Response to written questions submitted by Hon. Amy Klobuchar to:
    Dr. Joan Johnson-Freese......................................    44


     ASSESSING THE RISKS, IMPACTS, AND SOLUTIONS FOR SPACE THREATS

                              ----------                              


                       WEDNESDAY, MARCH 20, 2013

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning. We are delighted to have this 
meeting of our Science and Space Subcommittee in the new 
Congress.
    NASA and the space programs have been in the news a lot in 
the past year. Some really impressive feats. And we are going 
to be talking about some of those, from the Rover on Mars to 
the berthing of the SpaceX capsule at the International Space 
Station.
    I am delighted to have my colleague, Senator Cruz from 
Texas, as our Ranking Member. It seems like that Texas and 
Florida have some interest in the space program. And I am 
looking forward to his leadership. And I would ask for his 
opening statement.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Well, thank you, Mr. Chairman. Let me echo 
those sentiments and say how much I am looking forward to 
working with you on this subcommittee.
    Space flight and our capacity to maintain world-leading 
advantage in space flight is a critical priority for the nation 
and certainly a critical priority both for the State of Texas 
and the State of Florida. And so I am eager for our collective 
journey to ensure that NASA and all of the related programs 
have sufficient resources, sufficient priority to do what needs 
to be done.
    And I appreciate all of the witnesses coming here today to 
address these important topics and also to begin the process of 
what I hope this subcommittee will do over the coming years, 
which is continuing to make the case to the American people 
about the importance of these programs, about the benefits that 
they produce for the private sector, that they produce for men 
and women across this country, and, at the same time, looking 
for ways to improve those benefits, to expand the cooperation 
that we presently have between NASA and the private sector, and 
to look for ways to even further increase positive benefits 
that are realized in everyone's day-to-day life.
    And so I am eager and looking forward to working together.
    Senator Nelson. Thank you, Senator.
    In the interest of time, we are going to compress things 
today because there have been three roll call votes called at 
11:15. So I would like to see if we can get the bulk of the 
hearing in the time before the votes take place so that we can 
be mindful of your time, because those votes will stretch out 
over some period of time.
    And we are going to get into some interesting stuff here 
today on space debris and also asteroids possibly hitting the 
Earth. So we want to have time to cover this. Let me suggest to 
each of you, keep your comments to 5 minutes so that we will 
have a chance to get in depth in some of the questions.
    We have Dr. Jim Green, Director of the Planetary Science 
Division in NASA's Science Mission Directorate.
    We have former astronaut Dr. Ed Lu--two shuttle flights and 
a 6-day stay on the International Space Station. He is now the 
Chairman and CEO of the B612 Foundation, and he is going to 
talk to us about his foundation's Sentinel, which is to track 
near-Earth objects.
    And then Mr. Richard DalBello, Vice President of Government 
Affairs for Intelsat, who is going to speak about the economic 
role of satellites and the commercial and security implications 
from the space threats.
    And then Dr. Joan Johnson-Freese, Professor of National 
Security Affairs at the U.S. Naval War College. She is going to 
talk about the role of space in our daily lives and how space 
threats can threaten our national security.
    I will put my formal statement in the record.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Good morning. Thank you all for being here today for the first 
Science and Space Subcommittee hearing of the new Congress. NASA and 
the U.S. space program have been in the news a lot over the past year 
for some impressive feats of technology and engineering, from landing a 
rover on Mars to SpaceX berthing for the first time with the 
International Space Station.
    But about a month ago, there was some news that was more scary than 
exciting. That's when a meteor exploded over Russia with more energy 
than 20 atomic bombs, shattering glass and injuring over 1,000 people 
along the way. And, that same day, an asteroid passed closer to Earth 
than we've seen in a while. The days' newspapers read like sci-fi movie 
scripts, but all the content was real. The threat from these near-Earth 
objects, as well as threats from space weather, debris, and more, 
deserves a closer look from this committee.
    What have NASA and private space efforts done to increase our 
awareness of these space threats? And, what is being done to protect us 
and the systems we rely on from these threats? I'm looking forward to 
hearing more about that from the experts here today.
    Like others who have traveled into space, I myself am no stranger 
to space threats. After we landed from my shuttle mission in 1986, 
NASA's post-landing debris damage assessment found that Columbia 
received several debris impacts.
    The orbiter took a major hit on the Orbital Maneuvering System--the 
rocket engine used to perform orbit adjustments--and two craters were 
found around the right side window, the window that NASA's 
Administrator Charlie Bolden used when piloting Columbia.
    It is also prudent to point out that the International Space 
Station had to do three collision avoidance maneuvers last year to 
dodge debris from both the Chinese anti-satellite test in 2007 and the 
Iridium--Cosmos collision of 2009.
    But before I introduce our witnesses, I want to take a minute to 
remind everyone about the important role space plays in our lives, from 
the GPS navigation systems some of you used to find your way here today 
to the communication satellites that are allowing our remote viewers to 
watch this hearing. We live in a world that relies on systems in space 
and on the ground that are susceptible to space threats and we need to 
protect them just like we need to protect our planet itself.
    Without further ado, it is my pleasure to welcome:

    Dr. Jim Green, Director of the Planetary Science Division in NASA's 
Science Mission Directorate, who will provide an overview of NASA's 
work in these areas;
    Former NASA astronaut Dr. Ed Lu. After two shuttle flights and a 
six month stay on the International Space Station, Dr. Lu is now the 
Chairman and CEO of the B612 Foundation and will talk to us about the 
foundation's Sentinel mission to find and track near-Earth objects;
    Dr. Richard DalBello, Vice President of Legal and Government 
Affairs for Intelsat General Corporation, who is going to speak about 
the economic role of satellites and the commercial and security 
implications from space threats; and
    Dr. Joan Johnson-Freese, Professor of National Security Affairs at 
the U.S. Naval War College. She is here to talk to us about the role of 
space in our daily lives and how space threats can disrupt national 
security.
    I thank you all for being here today and look forward to your 
testimony.

    Senator Nelson. Your written testimony will be inserted in 
the record, and if you would just give us a quick summary so we 
can get into the questions, please.
    Senator Cruz. And, Mr. Chairman, I will confess, given the 
topic today, I was disappointed that Bruce Willis was not 
available to be a fifth witness on the panel.
    [Laughter.]
    Senator Nelson. We might get a trailer from ``Armageddon'' 
and show that.
    [Laughter.]
    Senator Nelson. Dr. Green?

       STATEMENT OF DR. JAMES GREEN, DIRECTOR, PLANETARY

         SCIENCE DIVISION, SCIENCE MISSION DIRECTORATE,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Green. Mr. Chairman and members of the Subcommittee, I 
am pleased to have the opportunity to update the Committee on 
NASA's programs and our approach to addressing the risks, 
impacts, and solutions for space threats.
    One space threat is Near-Earth Objects, or NEOs. NEOs are 
asteroids and comets that enter the near-Earth space. They are 
primitive leftover building blocks of the Solar System, making 
them also compelling objects for scientific study.
    Today we do not have a complete inventory of all the 
possible impactors. NASA was tasked by Congress in 1998 to 
catalog 90 percent of all the large NEOs within 10 years. The 
large NEOs are those that are 1 kilometer or more in size. A 
large NEO would cause a global catastrophe if one struck the 
Earth. NASA now is cataloging up to an estimated 95 percent of 
all the NEOs over 1 kilometer in size. That said, none of these 
known large NEOs pose any threat of impact to the Earth within 
the next 100 years. It is a situation we are constantly 
monitoring.
    In 2005, Congress directed NASA to expand the survey to 
detect, track, and catalog NEOs equal to or greater than 140 
meters in diameter. Congress set a goal for this program to be 
90 percent completed by 2020. For this expanded survey, NASA's 
NEO program currently has three survey teams that operate five 
ground-based telescopes and are providing the nonprofit 
foundation B612 with technical assistance and operational 
support through a Space Act Agreement for their space-based 
survey telescope that we will hear about today. NASA continues 
to make daily progress on this goal.
    Extreme space weather is another threat being studied by 
NASA. Space weather refers to the conditions on the Sun and in 
the solar wind, and in the near-Earth environment.
    Our ability to understand the Sun-Earth system is of 
growing importance to our Nation's economy and national 
security. The electric power industry is susceptible to 
geomagnetically induced currents, which can overload 
unprotected power grids and result in widespread power outages. 
In the spacecraft industry, intense geomagnetic storms have the 
capacity to disrupt normal operations, such as satellite 
communication. And, of course, they pose risks to our 
astronauts in space. In addition, space weather can cause 
irregularities in the signals from our very important Global 
Positioning System.
    The National Oceanic and Atmospheric Administration, or 
NOAA, is the official source for space weather predictions for 
the Nation. Several of NASA's research satellites have become 
an essential part of our Nation's space weather prediction 
system, providing very important data for determining the space 
weather conditions. One such mission is the Advanced 
Composition Explorer, which sits in the solar wind ahead of the 
Earth, providing early warning of incoming solar storms.
    Finally, orbital debris is the last space threat I will 
address today. The Joint Space Operations Center, managed by 
the U.S. Strategic Command, is tracking more than 23,000 
objects in orbit around the Earth, of which about 95 percent 
represent some form of debris. In addition, millions of smaller 
debris objects that can potentially damage spacecraft are 
orbiting the Earth.
    NASA continues to lead the world in studies to characterize 
the near-Earth space debris environment, to assess its 
potential hazards to the current and future space operations, 
and to identify and implement means to mitigate its growth.
    In conclusion, NASA is making great progress in 
understanding and developing measures for mitigation of these 
space threats.
    Again, thank you for the opportunity to testify today, and 
I look forward to responding to any questions you may have.
    [The prepared statement of Dr. Green follows:]

  Prepared Statement of Dr. James Green, Director, Planetary Science 
 Division, Science Mission Directorate, National Aeronautics and Space 
                             Administration
    Mr. Chairman and Members of the Subcommittee, I am pleased to have 
this opportunity to update the Committee on NASA's programs and our 
approach to addressing the risks, impacts, and solutions for space 
threats.
Orbital Debris
    Today, the Joint Space Operations Center, managed by U.S. Strategic 
Command, is tracking more than 23,000 objects in orbit about the Earth, 
of which approximately 95 percent represent some form of debris. In 
addition, millions of smaller debris objects that could still 
potentially damage spacecraft are orbiting the Earth. For over 30 
years, NASA has led the world in scientific studies to characterize the 
near-Earth space debris environment, to assess its potential hazards to 
current and future space operations, and to identify and to implement 
means of mitigating its growth. The NASA orbital debris program has 
taken the international lead in conducting measurements of the 
environment and in developing the technical consensus for adopting 
mitigation measures to protect users of the orbital environment. NASA 
is currently working to developing an improved understanding of the 
orbital debris environment and the measures that can be taken to 
control debris growth. NASA designs spacecraft to withstand the impacts 
of small debris and micrometeorites, and the Agency works with the 
Joint Space Operations Center to avoid collisions between our space 
assets and other known resident space objects.
Near-Earth Objects (NEOs)
    NEOs are comets and asteroids that have been nudged by the 
gravitational attraction of nearby planets into orbits that allow them 
to enter the Earth's neighborhood. Composed mostly of water ice with 
embedded dust particles, comets originally formed in the cold outer 
planetary system while most of the rocky asteroids formed in the warmer 
inner solar system between the orbits of Mars and Jupiter. As the 
primitive, leftover building blocks of the solar system, comets and 
asteroids offer clues to the chemical mixture from which the planets 
and life eventually formed, making them compelling objects for 
scientific study.
    The events of February 15, 2013, were a reminder of why NASA has 
for years devoted a great deal of attention to NEOs. The predicted 
close approach of a small asteroid, called 2012 DA14, and the 
unpredicted entry and explosion of a very small asteroid about 15 miles 
above Russia, have focused a great deal of public attention on the 
necessity of tracking asteroids and other NEOs and protecting our 
planet from them--something this Committee and NASA have been working 
on for over 15 years.
    To put these two recent events in context, small objects enter the 
Earth's atmosphere all the time. About 100 tons of material in the form 
of dust grains and small meteoroids enter the Earth's atmosphere each 
day. Objects the size of a basketball arrive about once per day, and 
objects as large as a car arrive about once per week. Our Earth's 
atmosphere protects us from these small objects, so nearly all are 
destroyed before hitting the ground and generally pose no threat to 
life on Earth. While objects the size of the one that exploded over 
Russia (a rocky asteroid about 17 meters in diameter and weighing from 
7,000 to 13,000 metric tons), enter the Earth's atmosphere roughly once 
every hundred years, they do remind us of the potential consequence of 
a larger impact. Even this small object resulted in about 6,000 
buildings being damaged and about 1,500 people being injured, mainly 
from broken glass from the shock wave of the object exploding about 15 
miles above the ground.
    NASA leads the world in the detection and characterization of NEOs, 
and provides critical funding to support the ground-based observatories 
that are responsible for the discovery of about 98 percent of all known 
NEOs. NASA also has focused flight missions to study asteroids and 
comets. NASA uses radar techniques to better characterize the orbits, 
shapes, and sizes of observable NEOs, and funds research activities to 
better understand their composition and nature. NASA also funds the key 
reporting and dissemination infrastructure that allows for worldwide 
follow-up observations of NEOs as well as research related activities, 
including the dissemination of information about NEOs to the larger 
scientific and engineering community. Consistent with the President's 
National Space Policy, NASA continues to collaborate with the 
Department of Defense and other government agencies on planning and 
exercises for responding to future hazardous NEOs.
    NASA was tasked by Congress in 1998 to catalog 90 percent of all 
the large NEOs (those of 1 kilometer or more in size) within 10 years; 
these would be large enough that should one strike Earth, it would 
result in a global catastrophe. NASA worked with a number of ground-
based observatories and partners as part of our Spaceguard survey to 
reach that goal; NASA has now catalogued an estimated 95 percent of all 
NEOs over 1 km in size. None of these known large NEOs pose any threat 
of impact to the Earth anytime in the foreseeable future.
    In 2005, Congress directed NASA to expand the survey to ``detect, 
track, catalogue, and characterize the physical characteristics of 
near-Earth objects equal to or greater than 140 meters in diameter'' 
(those that could destroy a city) and set a goal for this program to 
achieve 90 percent completion by 2020. NASA's NEO Observation Program 
(NEOO) currently funds three survey teams that operate five ground-
based telescopes.
    NASA has leveraged its investment in the Wide-field Infrared Survey 
Explorer (WISE) spacecraft by enhancing its operations to search for 
NEOs, resulting in the discovery of 146 previously unknown objects.
    NASA's NEO Observation (NEOO) Program includes collaboration on 
ground-based telescopes such as the Space Surveillance Telescope with 
the Defense Advanced Research Projects Agency (DARPA) and the U.S. Air 
Force. NASA also funds the Panoramic Survey Telescope & Rapid Response 
System. The wide field of view survey capabilities of these two assets 
are expected to provide a significant increase in NEO detection rate.
    However, ground-based telescopes will always be limited to the 
night sky and by weather. The only way to overcome these impediments is 
to use the vantage point of space. The privately funded B612 Foundation 
is planning to build a space observatory called Sentinel that would 
launch in 2018 and detect 100-meter sized objects and larger that could 
come near Earth's orbit. Sentinel will employ an infrared telescope 
from a Venus-orbit that will look ``back'' at the Earth in order to see 
and track near Earth objects. NASA is working collaboratively the B612 
Foundation by providing technical assistance and operational support 
through a Space Act Agreement.
    To find the more numerous smaller asteroids near Earth, NASA is 
initiating a project for development of an instrument that will be 
hosted on geosynchronous platforms such as communications, TV broadcast 
or weather satellites. This modest-sized, wide field telescope will 
have detectors that operate in the infrared bands where these faint 
asteroids are more easily detected against the cold background of 
space,
    NASA is a leading participant in the NEO activities of the United 
Nations Committee on the Peaceful Uses of Outer Space (UNCOPUOS). Over 
the past several years, a working group on NEOs under the UNCOPUOS 
Scientific and Technical Subcommittee has been examining the topic of 
Earth-threatening NEOs. Results of that work led to recommendations 
this year, endorsed by the Subcommittee, to broaden and strengthen the 
international network to detect and characterize NEOs, and to call for 
relevant national space agencies to form a group focused on designing 
reference missions for a NEO deflection campaign. NASA is at the 
forefront of these activities and will continue to take on that role. 
NASA is also in discussions with our international partners to 
collaborate on several missions or mission concepts that could, in the 
future, grant additional access by U.S. researchers to valuable data on 
asteroids. NASA is working with the Japan Aerospace Exploration Agency 
or JAXA on potential collaboration on the Japanese-led Hayabusa II 
mission, building on our joint success with the earlier Hayabusa 
mission to the near-Earth asteroid Itokawa. NASA is also discussing 
with the European Space Agency potential collaboration on two of their 
mission concepts: (1) the Marco-Polo-R mission concept which is focused 
on returning a sample from a primitive near-Earth asteroid in the late 
2020s, and, (2) the Asteroid Impact and Deflection Assessment (AIDA) 
mission concept that could be used to study the binary asteroid system 
Didymos with two spacecraft and see if a small interceptor can affect 
any the change in the relative orbit of the two bodies. Finally, the 
Canadian Space Agency launched their Near Earth Object Surveillance 
Satellite or NEOSSat in February 2013 to detect and track select near-
Earth asteroids, and we look forward to seeing its data.
    NASA is moving forward on the Agency's planned asteroid rendezvous 
and sample return mission, dubbed OSIRIS-REx (for Origins-Spectral 
Interpretation-Resource Identification-Security-Regolith Explorer), 
planned for launch in 2016. OSIRIS-REx will approach a near Earth 
asteroid, currently named 1999 RQ36 (one of the most exciting, 
accessible, volatile and organic-rich remnant currently known from the 
early Solar System), in 2019. After careful reconnaissance and study, 
the science team then will pick a location from where the spacecraft's 
arm will take a sample of between 60 and 1,000 grams (up to 2.2 lbs) 
for return to Earth in 2023.
    Finally, NASA is working to accomplish the President's policy goal 
of sending an astronaut to visit to an asteroid by 2025. This mission, 
and the vital precursor activities that will be necessary to ensure its 
success, should result in additional insight into the nature and 
composition of NEOs and will increase our capability to approach and 
interact with asteroids.
Space Weather
    Another threat from space being studied by NASA is space weather. 
Space weather refers to the conditions on the Sun and in the solar wind 
and near-Earth environment. Solar storms pose risks to humans in space 
and can cause disruption to satellite operations, communications, 
navigation, and electric power distribution grids; a severe geomagnetic 
storm has the potential to cause significant socioeconomic loss as well 
as impacts to national security.
    Our ability to understand the Sun-Earth system is of growing 
importance to our Nation's economy and national security. The 2008 
National Research Council report, Severe Space Weather Events--
Understanding Societal and Economic Impacts, identified three 
industries whose operations would be adversely affected by severe space 
weather: electric power, space, and aviation. The electric power 
industry is susceptible to geomagnetically-induced currents, which can 
overload unprotected power grids and result in widespread power 
outages. With warning, power grid operators may be able to adjust 
operations to counteract such effects. In the spacecraft industry, 
intense geomagnetic and radiation storms have the capacity to disrupt 
normal operations such as satellite communication and television 
service. Space weather can cause irregularities in signals from Global 
Positioning System satellites. The aviation industry is susceptible to 
space weather events from both an operational and safety perspective. 
Communications between flights taking polar routes and air traffic 
control could be disrupted due to interference between the radio waves 
and the effects of space weather in the ionosphere. In addition, flight 
routes may be re-routed further south during solar weather events to 
reduce the radiation exposure to passengers and crew.
    The National Oceanic and Atmospheric Administration (NOAA) is the 
official source for space weather predictions for the Nation. The U.S. 
Government, through the National Science Foundation and NASA, sponsors 
research programs to further our understanding of heliophysics and 
space weather. NASA's Heliophysics Division is responsible for 
formulating a national research program for understanding the Sun and 
its interactions with the Earth and solar system.
    NASA currently operates 18 missions studying the sun and the solar 
wind, which have produced a number of scientific discoveries over the 
last year alone. Voyager has taken us to the edge of our solar system, 
the twin Solar TErrestrial RElations Observatory (STEREO) spacecraft 
have allowed us to view space weather events throughout the solar 
system, the Solar Dynamics Observatory (SDO) is helping us understand 
the causes of solar variability and its impacts on Earth, and the 
recently launched Van Allen Probes have already made new discoveries 
within Earth's radiation belts. Furthermore, for the first time, we 
have complete coverage of the Sun from all angles 24 hours a day, 7 
days a week. We are now able to track the evolution of solar events 
from the solar interior to the surface of Earth, connecting the 
magnetized structure in the Sun's corona to the detailed features of 
Earth-directed coronal mass ejections (CMEs), or solar flares, to the 
intricate anatomy of geomagnetic storms as they impact Earth two to 
three days later. Several of these research satellites have become an 
essential part of our Nation's space weather prediction system. One 
example is the Advanced Composition Explorer (ACE) mission, which 
serves as an operational sentry for NOAA by providing early warning of 
incoming solar storms. However, ACE has been operating for 15 years and 
is well beyond its design life. Working with NOAA, NASA is refurbishing 
the Deep Space Climate Observatory (DSCOVR) in part to replace ACE's 
capabilities. Planned for a FY2015 launch, DSCOVR will have instruments 
that will provide critical operational space weather measurements to 
NOAA.
Conclusion
    NASA's portfolio of missions and research addresses fundamental 
questions and at the same time, helps to protect our home planet from 
natural hazards from space. Research and early detection and evaluation 
of space threats are key to assessing the risks and providing critical 
information for mitigation to decision makers.
    Again, thank you for the opportunity to testify today, and I look 
forward to responding to any questions you may have.

    Senator Nelson. And you are going to put up, along with 
NOAA and the Air Force, Discover in late 2014 for giving us 
early warning on sun explosions, are you not?
    Dr. Green. Yes, sir, that is correct. Indeed, Discover is a 
mission that is moving forward. It is a NOAA space weather 
mission, their first space weather endeavor at what we call L1, 
and it is indeed on track.
    Senator Nelson. OK.
    Dr. Lu?

  STATEMENT OF DR. EDWARD T. LU, CHAIRMAN AND CHIEF EXECUTIVE 
                    OFFICER, B612 FOUNDATION

    Dr. Lu. Thank you, Mr. Chairman. I wanted to talk about 
asteroids and what we are doing about them.
    The B612 Foundation is a Silicon Valley-based nonprofit 
that is building the Sentinel space telescope, and that 
telescope is going to find and track asteroids.
    As we were reminded a couple of weeks ago, the Earth is 
sometimes hit by asteroids. The City of Chelyabinsk in Russia 
had an asteroid explode about--that asteroid was only about 18 
meters across. That is about the--that would fit inside this 
room, roughly. Had an explosive energy about 25 times the bomb 
used in Hiroshima, or about 470 kilotons of TNT. The people of 
Chelyabinsk were very lucky. That asteroid exploded more than 
40 miles from the city, and yet it still injured 1,000 people.
    The last major impact before that was in 1908 in Tunguska. 
That asteroid was about 500 times the explosive energy of 
Hiroshima. It destroyed an area about the size of metropolitan 
D.C., and it was only about a factor of two larger. It would 
not quite fit in this room, but it is not much larger.
    So I would like to start a video just to show you what the 
Solar System really looks like. This is an anatomically 
accurate depiction of all the known asteroids in our Solar 
System. So this is actually off of the JPL data base. This is 
every single known asteroid.
    So the ones in the outside part of that, that is the 
asteroid belt. Those are the ones that won't hit the Earth. 
Those are the ones between Mars and Jupiter. The ones on the 
inside are the so-called near-Earth objects, and those are the 
ones that could hit Earth. And those are the ones that Dr. 
Green talked about. And those are the ones we are concerned 
with.
    There are about 10,000 known near-Earth asteroids which 
have been discovered through NASA's Spaceguard program. 
However, we know that this is only a tiny fraction of those 
larger than the one that struck Tunguska that are out there. We 
know that there are about a million of them out there. We know 
this by counting craters and by knowing what small fraction of 
the sky we have actually been able to survey thus far from the 
ground.
    So it turns out that, of these 10,000 that I am showing 
here--the light green line, by the way, is the orbit of the 
Earth. You can see how many of them fly past the Earth. There 
is actually about a factor of 100 more. For every one we know 
about, there are a 100 more we don't know about. And we simply 
don't know when the next one is going to hit the Earth because 
we don't know where they are.
    The real situation looks more like this. This is what it 
looks like with a million near-Earth asteroids. And so you can 
see that the Earth really is flying around the Solar System in 
a cosmic shooting gallery, in some sense. And that is why these 
things hit the Earth.
    So let me tell you a little bit about the odds of an 
asteroid hitting the Earth. You may be surprised by these odds. 
The odds of a 100-megaton impact this century--and 100 
megatons, for scale, is about five times all the bombs used in 
World War II, including the atomic weapons. The chance of that 
in your lifetime, or this century, is about 1 percent on a 
random spot somewhere on Earth. Now, the odds of a much smaller 
5-megaton impact, like we had in Tunguska, an asteroid that 
would not quite fit in this room, is about 30 percent. A 40 
meter asteroid has a 30 percent chance.
    So if I told you that there was a 30 percent chance of a 
random 5 megaton nuclear explosion somewhere on the surface of 
the Earth this century, what would we do to prevent that? And 
how is this situation any different?
    Yes, most of the Earth is unpopulated, and we could get 
lucky. But wouldn't it be a shame if the area of the next 
impact was an area that wasn't unpopulated? And there are less 
and less areas that are unpopulated.
    But there is good news. It turns out that we actually have 
the technology to deflect asteroids if we have a decade or more 
of notice. And NASA has been working on this; the National 
Academies has written a report on this. We understand how to 
deflect asteroids if we have advance warning. Because you can't 
deflect anything, you can't explore anything, you can't learn 
anything about something that you haven't yet found. That is 
the key.
    So in the next video I will show you what the B612 
Foundation is doing. We are building a space telescope; it is 
called Sentinel. And that is what it looks like. It is about 
the size of a FedEx moving van. And it is going to orbit the 
Sun, and it is going to track near-Earth asteroids.
    According to the National Academies' findings, the best way 
to find asteroids is in the infrared, where asteroids are 
brightest, and from a vantage point where it can always look 
away from the Sun, so in an orbit around the Sun something like 
Venus.
    So I will show you here where this thing is going to orbit 
the Sun, and that is where it can see--the white disc that you 
see is what it can see. The light-green line is the orbit of 
the Earth. So, as Sentinel moves around the Sun faster than the 
Earth does, it will scan Earth's orbit.
    So it is going to find about 100 times more asteroids than 
all other telescopes combined. So it will be far, far and away 
more effective than all other telescopes combined. We have 
discovered, as Jim has said, about 10,000 near-Earth asteroids 
thus far with all of our telescopes over the last 30 years. 
Sentinel will discover roughly that number every 2 weeks. So it 
will be an impressive instrument.
    We have assembled one of the world's finest spacecraft 
teams to work on this, and we have chosen Ball Aerospace in 
Boulder, Colorado, as our prime contractor. Sentinel is based 
on the design of the Kepler Space Telescope and the Spitzer 
Space Telescope, both of which were built by Ball. We launch in 
July 2018.
    A couple things make this project unique. First, the B612 
Sentinel project is being funded philanthropically. We are a 
nonprofit, and we will openly share the data with the world.
    Second, we are managing this project in what I believe to 
be an innovative fashion, using commercial procurement 
practices. I proudly served at NASA for 12 years as an 
astronaut, and I also had the privilege of working at Google. 
And I think that we are using the best of both worlds in 
managing Sentinel. We are combining the technical rigor of 
NASA, which is the best in the world, with the innovative, 
rapid, and cost-effective practices that I learned at Google. 
And the secret to success, as I learned at both of these 
organizations, is hiring the very best people, and I think we 
have done that.
    So I do want to talk a little bit about NASA. They have a 
very significant role in this. We are in a true sense a public-
private partnership. We have a Space Act agreement in which 
NASA will be allowing us to use the deep space network of 
telescopes to transmit our data, and, also, NASA experts are 
part of our review teams. So they are a very important part of 
our project.
    Sentinel will be important on a number of levels. So not 
only will it enable us to know if an asteroid is going to hit 
the Earth in time for us to actually deflect one, but it will 
find asteroids that merely come close to the Earth. And this 
happens all the time. And these asteroids that come close to 
the Earth will be attractive targets for exploration, both 
human and robotic, in the coming years.
    So, should an asteroid be found on an impact trajectory 
with Earth--and I am reminding you that there is a 30 percent 
chance that there is a 5 megaton or larger impactor that is 
going to hit us this century--so should we find one, I believe 
that humanity will come together to prevent this. We will use 
our space technology to nudge this asteroid and prevent it from 
hitting the Earth. And I think that will be a watershed moment 
in human history.
    And so thank you very much.
    [The prepared statement of Dr. Lu follows:]

   Prepared Statement of Dr. Edward T. Lu, Chief Executive Officer, 
                            B612 Foundation
    My name is Ed Lu, and I am the CEO of the B612 Foundation. Thank 
you for the opportunity to testify before the Senate Science and Space 
Subcommittee to describe the B612 Foundation Sentinel Space Telescope 
project. The B612 Foundation is a nonprofit 501(c) 3 organization 
dedicated to opening up the frontier of space exploration and 
protecting humanity from asteroid impacts. On June 28, 2012, the 
Foundation announced its plans to carry out the first privately funded, 
launched, and operated interplanetary mission--an infrared space 
telescope to be placed in orbit around the Sun to discover, map, and 
track threatening asteroids whose orbits approach Earth. Our name was 
inspired by the famed children's book by Antoine de Saint-Exupery. B612 
is the asteroid home of The Little Prince.
    As the asteroid impact near Cheylabinsk Russia on February 15, 2013 
vividly reminded us, our planet is occasionally struck by asteroids 
capable of causing significant damage. This was the largest asteroid 
impact since June 30, 1908, when an asteroid flattened 1000 square 
miles of forest in Tunguska, Siberia. The Earth orbits the Sun among a 
swarm of asteroids whose orbits cross Earth's orbit. These are not the 
asteroids that make up the asteroid belt between Mars and Jupiter, but 
rather the Near Earth Asteroids whose orbits take them much closer to 
the Sun, and who regularly cross the orbit of Earth. These asteroids 
are remnants of the formation of our solar system, and range in size 
from pebbles to many miles across.
    More than a million of these Near Earth Asteroids are larger than 
the asteroid that struck Tunguska in 1908 with an energy more than 500 
times greater than the atomic bomb dropped on Hiroshima. That asteroid 
was only about 40 meters across (about the size of a 3 story office 
building), yet destroyed an area roughly the size of metropolitan 
Washington, D.C. Unfortunately, less than 1 percent of the over one 
million asteroids greater than 40 meters have been identified to date. 
We therefore do not know when the next major asteroid impact will 
happen.
    Currently there is no comprehensive dynamic map of our inner solar 
system showing the positions and trajectories of these asteroids that 
might threaten Earth. We citizens of Earth are essentially flying 
around the Solar System with our eyes closed. Asteroids have struck 
Earth before, and they will again--unless we do something about it. The 
probability of a 100 Megaton asteroid impact somewhere on Earth this 
century is about 1 percent. The odds of another Tunguska 5 Megaton 
event this century are much higher, about 30 percent. What if I told 
you there is a 30 percent chance of a random 5 megaton nuclear 
explosion somewhere on Earth this century? What would we do to prevent 
it?
    But in the case of asteroids, we as a civilization have the 
capability to change the odds, and it is the mission of the B612 
Foundation to ensure that such impacts do not happen again. Deflecting 
asteroids is technologically feasible, IF we have adequate early 
warning. If we know decades in advance of an impact, we can predict and 
actually prevent an impact using existing technology (kinetic 
impactors, gravity tractors, and if required, even standoff nuclear 
explosions) to nudge the asteroid and subtly change its course to miss 
Earth. Conversely, we can do nothing about an asteroid that we have not 
yet found and tracked. Thus, the first task we must undertake if we 
hope to protect ourselves from asteroid impacts is to conduct an 
astronomical survey of asteroids whose orbits approach Earth.
    The B612 Foundation therefore decided to build, launch and operate 
a solar orbiting infrared space telescope called Sentinel to find and 
track asteroids which could impact Earth. Sentinel will be launched in 
July 2018, and during the first 6.5 years of operation will discover 
and track the orbits of over 90 percent of the population of Near Earth 
Objects (NEOs) larger than 140 meters, and the majority of those bigger 
than the asteroid that struck Tunguska (40 meters). Sentinel will 
discover 100 times more asteroids than have been found by all other 
telescopes combined.
    Sentinel is novel amongst deep space missions in that it is being 
carried out by a private organization, the nonprofit B612 Foundation, 
and also because it is being managed using commercial practices under a 
milestone based, fixed price contract with the prime contractor Ball 
Aerospace and Technologies Corp. (BATC).
Sentinel Mission Overview
    In 2005, the U.S. Congress recognized the need to extend the 
existing Spaceguard Survey for 1 km and larger NEOs down to smaller but 
still dangerous asteroids. The George E. Brown Act \1\ authorized NASA 
to complete (>90 percent) a survey for NEOs down to a size of 140 
meters, a size which while not threatening to human civilization is 
still capable of causing great damage (having an impact energy of 
roughly 100 Megatons of TNT). However, this future enhanced survey has 
not been funded by Congress, and the goal remains unfulfilled. 
Currently 90 percent of NEOs larger than 1km have been discovered and 
tracked; while only about 5 percent larger than 140 meters, and only 
about 0.2 percent of those larger than 45 meters <SUP>2,3</SUP> have 
been tracked.
    With this situation as a backdrop, the B612 Foundation decided in 
2011 to undertake such a survey itself, and publicly announced the 
Sentinel Mission on June 28, 2012. Because asteroid deflection requires 
relatively small change in asteroid velocity when done many years to 
decades in advance of the impending impact,\4\ the goal of this survey 
is to find and track asteroids with enough orbital accuracy to know if 
a serious threat exists and to give sufficient warning time to enable a 
successful deflection if necessary. We have chosen to adopt the 140 
meter 90 percent completeness goal as our driving requirement, knowing 
that in addition in to generating a largely complete catalog at the 140 
meter size level, many smaller yet still potentially dangerous 
asteroids will also be cataloged. The Sentinel mission is designed to 
give humanity sufficient warning time to be able to prevent threatening 
asteroid impacts.
Novel Private Funding and Commercial Program Management
    One of the novel aspects of this mission is the way in which it is 
being funded. The B612 Foundation is a nonprofit charitable 
organization which is raising funds through philanthropic donations. 
Interestingly, large ground based telescopes (such as Lick, Palomar, 
Keck and Yerkes) have historically been largely funded through 
philanthropy.\5\ In some sense Sentinel will be like these large 
observatories, with the exception that Sentinel will be in solar orbit 
rather than on a mountain-top. The B612 Foundation will in turn 
contract the spacecraft out to BATC, with B612 functioning in the role 
of program/contract manager and carrying out independent assessment of 
program progress. The total cost of the mission is currently under 
negotiation. The B612 Foundation expects to raise about $450M over the 
next 12 years to fund all aspects of this mission including 
development, integration and test, launch, operations, and program 
expenses.
    The Sentinel mission is also taking an innovative approach to 
building and operating this interplanetary space mission. While 
previous missions that have departed from Earth orbit have been 
scientific investigations that have been developed with oversight by 
NASA or other governments (e.g., ESA), Sentinel will be managed by B612 
Foundation by adopting commercial practices for procurement and 
operations. Currently, communications and remote sensing imaging 
satellites (such as Digital Globe's WorldView series) are routinely 
procured under fixed-price contracts using commercial terms and 
conditions. These successful missions are compatible with such an 
approach because their performance requirements are very carefully 
specified in the contract and both parties are very familiar with the 
risks involved in the contract. In contrast, science missions typically 
push technology and performance margins in pursuit of innovative 
objectives. Furthermore, mission risks and possibly even the detailed 
design, are often not well understood at the time of contract signing. 
In these cases, NASA and contractors prefer a performance-based cost-
reimbursable contract to limit the risk to the manufacturer. B612 has a 
very well-defined and stable requirement as articulated above. Thus, 
one of the prerequisites for commercial contracting is met.
    One of the advantages B612 Foundation has as a private organization 
is that it is not bound by Federal procurement regulations. This allows 
B612 to make decisions and move quickly without the cumbersome 
regulations designed to prevent favoritism in Federal contracts, but 
which can add great overhead and slow decisions in cases where there is 
a clear best approach and contractor. BATC has carefully explored the 
implementation of the Sentinel mission and has identified high-heritage 
existing hardware system implementations (The Kepler and Spitzer 
spacecraft) that enable BATC to quantify the risk of manufacture and 
operation of Sentinel. Thus, we have been able to choose BATC as our 
contractor, and to make rapid progress towards a commercial contracting 
approach. This gives us the opportunity to enter into a fixed-price 
contract, an important feature for B612 since we must have a definite 
fund-raising target and do not have the ability to cover open-ended 
liabilities and cost-growth that might result from programmatic 
uncertainties. Crucially, the management of costs is the responsibility 
of BATC, which frees them from expensive accounting and compliance 
requirements associated with cost-reimbursable contracts.
    A key feature of a successful implementation of this commercial 
contracting approach is frequent and detailed communications between 
B612 and BATC. While BATC is responsible for meeting performance 
requirements, B612 remains aware of programmatic risks and mitigations 
and approves the progress of the work. This is facilitated by the 
identification of milestones within the contract that detail various 
development achievements at which point the progress of the overall 
contract can be assessed. These assessments provide opportunities for 
dialog on programmatic and mission risks and mitigations. This 
arrangement is relatively hands off compared to typical large space 
missions, and works both because B612 has a small but highly 
experienced technical team, and because of the high heritage of the 
BATC design. B612 has also enlisted an independent panel of experts 
known as the Sentinel Special Review Team \6\ to provide advice on 
technical and programmatic risk to B612. In addition, B612 will have 
permanent on-site technical and management personnel to enhance our 
visibility into progress on the contract. This approach has been 
implemented with great success on numerous other commercial space 
missions.
    Another key aspect of the mission is support from NASA. B612 
Foundation and NASA have signed a Space Act Agreement \7\ in which NASA 
will provide use of the Deep Space Network (DSN) for telemetry and 
tracking, as well as allowing NASA personnel to participate on the 
independent technical advisory team known as the Sentinel Special 
Review Team. NASA and the scientific community benefit because B612 
will make the data available to the community through the standard 
process for reporting NEO observations (see Detection Scheme below).
Sentinel Mission Overview
    The Sentinel mission places an infrared imaging telescope in a 
Venus-like orbit to identify and catalog NEOs over a 6.5-year mission 
life. Figure 1 shows Sentinel's viewing geometry. The ``Venus-like'' 
orbit at 0.7 AU provides up to a 200 degree, anti-sun viewing field 
that the observatory methodically scans to detect the infrared light 
coming from any moving object in the field. By making observations from 
0.7 AU, Sentinel views a much larger portion of the sky relevant to 
finding NEOs than can be seen from the Earth, either from ground-based 
or space-based observatories. A space-based survey is also not 
compromised by the atmosphere, or by the presence of the moon, or by 
the requirement to look for NEOs low in the sky during twilight. 
Locating Sentinel in space near 0.7 AU from the Sun has the additional 
benefit of being interior to most NEOs, thereby observing them when 
they are closest to the Sun and at their brightest. This, or a similar 
orbit, is essential for detecting those long-synodic-period (low 
relative velocity with respect to Earth) NEOs that are the most 
dangerous and valuable to future exploration missions.
    Sentinel will be launched from Earth on a Falcon 9 rocket. The 
cruise to the final heliocentric orbit at 0.7AU uses a Venus gravity 
assist to minimize fuel requirements. Communications through the DSN 
with Sentinel consists of two kinds of interactions. Infrequent command 
uplinks occur through low speed command link, while mission data uses a 
high speed downlink. The total downlink data volume is 4 gigabits a 
week, and the DSN link-time is approximately 4 hours per week. Flight 
data from the DSN is first processed at a ground station at the 
Laboratory for Atmospheric and Space Physics at the University of 
Colorado.
    The Sentinel uses proven designs successfully flown on the Kepler 
and Spitzer missions to demonstrate feasibility and low development 
risk, and to provide a firm cost basis. Figure 2 shows the notional 
Sentinel Observatory. The tall structure on left is the thermal shield, 
which also carries the body-fixed solar array, a system based on 
Spitzer.\8\
    The central region shows the two intermediate-temperature thermal 
shields, rendered in brown. To the right of the intermediate 
temperature shields is the 50-cm-aperture mid-wave infrared (MWIR) 
telescope. The telescope is cooled to 45K by a combination of radiative 
and active cooling. The instrument's HgCdTe focal plane is actively 
cooled to 40K. The detection band from 5 to 10.4 microns is optimized 
for detecting T=250K objects, a characteristic temperature for NEOs 
near 1AU. The telescope is mounted on a Kepler-derived spacecraft, and 
reuses Kepler's avionics and structure.
Detection Scheme
    To detect a NEO, we require two pairs of observations of the anti-
Sun hemisphere in 24 days. The basic detection scheme's timeline is 
presented in Figure 3. There are 4 separate observations made of every 
part of the anti-Sun hemisphere every 24 days (and 4 pairs on most 
sections in 26 days.) The images are taken in correlated pairs that 
reveal the motion of any NEO in the 1-hour span between images. All the 
data for each pair of images is first stored, and then later compared 
on-board, and NEOs are detected by their motion during the one hour 
interval between the two images.
    We greatly reduce the amount of telemetry data by retaining only 
those portions of the imaged field that contain pixels determined by 
the dedicated on-board Payload Computer to contain moving objects. 
Additionally, for each tile we include roughly 100 well-known infrared 
stars used to establish an astrometric grid.
    At the ground station, these observations are converted into 
detection-fragments called ``tracklets.'' Tracklets are then sent to 
the IAU Minor Planet Center (MPC) in Cambridge, Massachusetts. The MPC 
maintains the world's NEO database, and will convert tracklets into 
orbits. These MPC orbits then go to the Near-Earth Object Program 
Office at JPL which refines the initial MPC orbits, calculates the 
likelihoods of any impacts and globally distributes its findings.
Survey Performance
    In 6.5 years of operation, Sentinel will detect and track the great 
majority (>90 percent) of all NEOs larger than 140m. In addition, 
Sentinel will detect and track 50 percent of all NEOs greater than 50m. 
Figure 4 presents Sentinel's NEO cataloguing rate. These results were 
generated using an integrated-systems model which includes a modeled 
NEO population in combination with spacecraft telescope and detector 
performance models as well as the preliminary observing cadence 
described in figure 3. We iteratively used the model to guide our 
design through the phase-space of options until we hit the 90 percent 
level for 140 meter objects on this plot. Among the parameters 
considered in these trade studies were aperture, field of view, 
detector wavelength cutoffs, final spacecraft orbital parameters, focal 
plane array operating temperature, detection thresholds, pixel size, 
integration time, etc. Over 75 such trade studies have been carried out 
thus far.
Summary
    Sentinel is important on a number of levels. First, the B612 
Foundation is pioneering a new model for carrying out large space 
missions in which Sentinel is philanthropically financed and privately 
managed, but with a crucial government partnership. Second, the primary 
goal of the mission is not scientific. While it is true that Sentinel 
will be a groundbreaking new astronomical instrument, the primary 
requirement for the mission stems from a planetary defense (i.e., 
public safety) goal. Once Sentinel is in operation, it will generate a 
flood of new NEO discoveries, far in excess of all other observatories 
combined. After 6.5 years of operation it will discover and track 
approximately 1,000,000 NEOs, as compared to the currently known total 
of about 10 thousand. Not only will this catalog provide a list of 
potential targets for robotic and human exploration, but should any of 
these NEOs be on a collision course this information can allow us to 
successfully mount a deflection campaign and prevent a catastrophe. Our 
future may depend on it.
References
    1. http://www.gpo.gov/fdsys/pkg/PLAW-109publ155/pdf/PLAW-
109publ155.pdf
    2. Harris, A.W. NATURE 453, 1178-1179, 2008.
    3. Alan W. Harris, personal communication
    4. Schweickart, R.L, 2009. http://dx.doi.org/10.1016/
j.actaastro.2009.03.069
    5. MacDonald, A. 2012. PhD Thesis.
    6. http://b612foundation.org/the-foundation/sentinel-review-team/
    7. http://b612foundation.org/images/SAA_redacted.pdf
    8. M. W. Werner et al. 2004 ApJS 154 1 doi:10.1086/422992
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Figure 1--Sentinel's mission architecture enables it to detect and 
track NEOs within a much larger search volume than is available from 
the ground, and without the constraints of weather and lunar cycles.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 2 shows the Sentinel Observatory. It consists of a rebuild 
of the Kepler spacecraft (modified for the Venus-like orbit) and an 
infrared telescope.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 3. The basic viewing scheme uses one-hour pairs on two-day 
and then 26-day centers to locate moving NEOs.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 4. Survey completeness for all NEOs > 140-meter and 60-meter 
diameter vs. time for Sentinel, assuming simultaneous operation of 
ground based Pan-STARRS1

    Senator Nelson. And we want to get into how you are going 
to nudge it away. And we will get into that.
    Mr. DalBello?

   STATEMENT OF RICHARD DalBello, VICE PRESIDENT, GOVERNMENT 
                       AFFAIRS, INTELSAT

    Mr. DalBello. Thank you, Mr. Chairman, Senator Cruz. It is 
a pleasure to be here today to talk about the issues of space 
risks and how they influence the commercial operators who are 
earning their living day to day in space.
    Intelsat has been in this business for about 50 years. We 
are currently flying over 70 satellites. So we are pretty 
familiar with the space environment and the risks it entails. 
As a global fleet operator serving both commercial and 
government customers, reliability and continuity of service are 
our highest priorities. Whether it is UAV operations over 
Afghanistan or the final game of the NCAA tournament or 
financial statements that have to be transferred securely 
around the world, we know that our customers expect flawless 
performance.
    To deliver this level of performance, we have to daily deal 
with a range of threats. Probably the highest priority issue 
for us today is radio frequency interference. In most cases, 
this service disruption is accidental, however, it sometimes is 
intentional. Other threats include space debris and other 
challenges of space flight; cyber attacks; solar weather; space 
systems reliability; the fact that we today don't have an 
affordable technical solution for refueling and repairing 
satellites on orbit; and last but not least, an international 
launch industry that is far from robust.
    Now, our economy depends on the ability to create and 
instantly distribute vast amounts of data around the planet. 
Space-based platforms have become a vital link in the national 
and global economies. They are essential to the prediction of 
weather, navigation in all kinds of transportation, the 
operation of power grids, the completion of local and global 
financial transactions, and communication to mobile platforms, 
whether they be on land, sea, or air.
    The commercial satellite industry also plays a critical 
role in supporting government operations. Commercial satellites 
supply the majority of communications in Afghanistan and Iraq. 
Today, our satellites are still flying almost all of the DOD's 
unmanned aerial vehicles, and we are providing the vast 
majority of the Navy's communications at sea.
    To address the challenges that I mentioned earlier, the 
leading space operators have gotten together on a number of 
complex cooperative projects.
    Probably the most significant of these is the Space Data 
Association, or SDA of which Intelsat is a founding member. The 
formation of SDA is a major step toward creating a voluntary 
space traffic control, if you will. It is an interactive 
repository of satellite orbit and maneuver information and soon 
will contain satellite configuration data. That will allow us 
to also use the same database to help resolve radio frequency 
interference issues.
    The Space Data Center allows satellite operators to augment 
government-supplied data with precise orbit data, maneuver 
plans, and to retrieve information from other member operators 
when necessary.
    Determining the orbit of objects in geo is a complicated 
task. The U.S.'s current Space Surveillance Network is subject 
to a number of constraints. Some of those constraints are 
weather, scheduling, geographic diversity, and overall 
capacity. Recent efforts within SDA to share owner-operator 
data provide clear proof of the value of collaboration. NASA 
and NOAA have both joined SDA and are providing information 
into this common data base.
    In creating SDA, the private sector has taken the first 
step toward a new paradigm of managing risk in space, but to be 
most effective, far more cooperation is needed.
    In other areas of interest to this committee and being 
discussed today, such as space weather or highly uncommon 
events, such as the asteroid fly-by, there are no clearly 
established links between the government and the commercial 
sector.
    In space weather, although we are aware of the good work 
that NOAA is doing at the Space Weather Prediction Center, 
there is no established alert protocol between government and 
industry. Nor is it clear what levels of solar activity would 
mandate change to routine operations. So it is one thing that 
good solar information exists, but the lack of a communication 
ability to translate that information into action is a 
significant deficit.
    For a highly uncommon event, such as an asteroid fly-by, 
there is simply no established communication mechanism. I 
believe our flight operations team learned of DA14 when they 
received a courtesy call from a colleague at the Aerospace 
Corporation.
    Last year, the commercial satellite industry participated 
in DOD's Schriever Wargames. Now, these games are held every 
other year, and they are designed to exercise DOD thinking 
about the deployment of its terrestrial and space assets in 
response to a conflict situation. Last year, those games 
concluded, as they have several times in the past, that DOD 
relies on the commercial satellite industry--their reliance is 
considerable and that a crisis is the wrong time to try to 
establish clear lines of communication with your major partners 
and suppliers. I suspect the same conclusion can be safely 
applied to the topics that we are discussing today.
    While governments were first to send satellites to near-
Earth space, commercial enterprise will be the primary user of 
the orbital arc in the 21st century. Governments and commercial 
space operators need to take a more collaborative approach to 
enhancing the safety of the space environment. The SDA is an 
important step on this path.
    With the support of the U.S. Government, we can create an 
international framework that acknowledges the vital 
contribution of commercial industry while working to assure the 
preservation of the space environment.
    Thank you, sir.
    [The prepared statement of Mr. DalBello follows:]

        Prepared Statement of Richard DalBello, Vice President, 
                      Government Affairs, Intelsat
    Good morning. I am Richard DalBello, Vice President of Government 
Affairs for Intelsat.
    It is a pleasure to be here today to discuss the ``Risks, Impacts, 
and Solutions for Space Threats'' as they pertain to the commercial 
satellite industry. As requested, I will also comment on the state of 
the current collaboration between industry and government on these 
topics and offer some ideas on how to improve the planning and 
cooperation between the U.S. Government and the industry.
    Intelsat is the world's leading provider of satellite services. 
With almost 50 years of service and over 50 satellites in orbit, we are 
familiar with the complex challenges of this industry. As a global 
fleet operator, our concerns go beyond the operation of individual 
satellites but are, instead, focused on the maintenance of a highly 
sophisticated global fleet of satellites and our IntelsatOne 
terrestrial network, providing a multiplicity of services to large 
media, corporate, and government customers.
    Continuity of service is one of the highest priorities of our 
commercial and government customers. Large media companies, 
broadcasters, global corporate networks, and government users must feel 
that our satellite services are dependable and that their critical 
services will not be interrupted. Thankfully, today's satellites are 
highly reliable and they often outlive their notional 15-year 
lifetimes. Of course, anomalies can occur and satellites must be 
replaced at the end of their useful lives. Maintaining a fleet of over 
50 satellites means that we are launching several replacement 
satellites each year. This raises two other significant topics: the 
importance of a vibrant, domestic launch industry and the relevance of 
investments in next-generation technologies to allow the refueling and 
repair of satellites on orbit. Although these topics are beyond the 
scope of this hearing, they have a significant impact on our country's 
current and future ability to respond to space threats.
Increased Reliance on Satellite Communications
    Over the last several decades, the U.S. economy and the Federal 
Government have both grown increasingly reliant on the commercial 
satellite communications industry. Today, such vital activities as 
television broadcasts, the Internet, oil and gas exploration and 
production, financial transactions and agricultural production all 
depend, in part, on the ability to communicate by satellite.
    Our economy now depends on the ability to create and instantly 
distribute vast amounts of information around the world. Space-based 
communications platforms have become vital to the day-to-day linking of 
national and global economics, the prediction of weather, the 
navigation of virtually all forms of transportation, the operation of 
power grids and the completion of local and global financial 
transactions. In remote parts of the globe, satellites provide the only 
link to more populated areas. A sudden loss of satellite communications 
would cause significant economic disruption.
    The commercial satellite industry also plays a critical role in 
supporting government operations, including national security and 
emergency preparedness missions. The commercial industry supplied the 
majority of the satellite communications used for military operations 
in Afghanistan and Iraq and continues today to provide nearly all 
beyond-line-of-sight communications for our unmanned aerial vehicle 
(UAV) fleets.
Commercial Satellite Vulnerabilities and the 2009 NSTAC Report
    In 2008, Intelsat participated in a review by the President's 
National Security Telecommunications Advisory Committee (NSTAC) to 
identify both physical and cyber security threats facing the commercial 
satellite industry, mitigation measures employed to combat such 
threats, and initiatives to develop a standard security framework among 
satellite operators to enhance national security.\1\ The report was 
published in 2009, but its major conclusions are still relevant today.
---------------------------------------------------------------------------
    \1\ NSTAC. (2009). NSTAC Report to the President on Commercial 
Satellite Communications Mission Assurance.
---------------------------------------------------------------------------
    Among the NSTAC Report's conclusions were:

  <bullet> Radio Frequency Interference (RFI)--Radio frequency 
        interference represents a significant and growing threat to 
        satellite services, yet Government and industry do not 
        collaborate systematically to share information regarding the 
        detection, characterization, geolocation,\2\ and mitigation of 
        interference. The Government engages with industry only when a 
        Government service is affected instead of working 
        collaboratively with industry to identify best practices and 
        establish shared situational awareness and mitigation 
        approaches.
---------------------------------------------------------------------------
    \2\ Geolocation is a technique that allows satellite operators to 
rapidly identify the location of an interfering signal by using 
advanced signal processing techniques coupled with other known 
information.

  <bullet> Cyber security--The terrestrial components of satellite 
        networks contain many of the same subsystems found in other 
        communications networks. As a result, satellite and terrestrial 
        networks share similar cyber vulnerabilities and mitigation 
        measures. However, because satellites must be controlled 
        remotely from Earth, satellite operators take special care to 
        mitigate two risks: (1) remote introduction of a false 
        spacecraft command; and (2) a malicious third party preventing 
        the spacecraft from executing authorized commands or 
        interfering with satellite telemetry reception. Consistent with 
        Government policy, most satellite companies use the National 
        Security Agency-approved satellite command uplink encryption 
---------------------------------------------------------------------------
        for satellites supporting U.S. Government services.

  <bullet> Space Traffic Control--While an accidental collision between 
        space debris and a satellite is unlikely, collisions do occur, 
        can be catastrophic, and can cause permanent damage. The 
        February 2009 collision of an Iridium communications satellite 
        and a defunct Russian Cosmos satellite provides one example. 
        Every such collision produces additional debris that remains in 
        the space environment, often for years, and poses an ongoing 
        threat to other spacecraft. Preventing collisions is of 
        paramount importance. The NSTAC found that, today, the 
        Department of Defense (DOD) shares only limited space 
        situational awareness information with private industry. 
        However, promising initiatives such as industry's Space Data 
        Association should promote better location sharing, maneuver 
        coordination, and collision avoidance.

  <bullet> Protection of Terrestrial Infrastructure--Satellites are far 
        less likely than terrestrial facilities to be the target of a 
        successful physical attack due to their location in space. The 
        NSTAC found that satellite operators use redundant and 
        geographically diverse facilities to protect terrestrial 
        infrastructure from man-made and natural threats to ensure 
        continuity of critical satellite network functions. Ground 
        stations are connected by redundant, path-diverse, 
        cryptographically secured communications links and employ 
        preventative measures such as buffer zones and robust security 
        systems to protect from attack. Further, operators maintain 
        personnel security procedures, including background checks, 
        employee badges, logged entry and exit, and on-site security 
        guards, as part of their best-practice security efforts.

  <bullet> Collaborative Forums for Government/Industry Dialogue--The 
        NSTAC report noted, with approval, the creation by DOD of the 
        Mission Assurance Working Group (MAWG) to encourage a 
        constructive and collaborative relationship between DOD and the 
        satellite industry, including at the classified level. The MAWG 
        had undertaken a variety of issues including enhancing 
        compliance of commercial services with DOD mission assurance 
        requirements, increasing mission assurance through 
        modifications and improvements to communication architectures, 
        and suggesting new or revised capabilities for commercial 
        service acquisitions.\3\
---------------------------------------------------------------------------
    \3\ Since the publication of the NSTAC report, the MAWG has been 
disbanded. Discussions are underway between DOD and industry to 
replicate some of the functions of the MAWG but, to date, no formal 
structure has been established.

  <bullet> Long Term Planning--Satellite operators make every effort to 
        replace existing satellites with updated or enhanced systems to 
        meet both future commercial and Government user requirements. 
        However, the Government does not engage with industry in 
        planning for its long-term communications needs. As a result, 
        the Government relies on the ``spot market'' to meet most long-
        term service needs and risks a potential shortfall in 
---------------------------------------------------------------------------
        commercial satellite availability when critical needs arise.

  <bullet> Space Weapons--Due to the technological availability and/or 
        cost of mitigation, the commercial satellite industry does not 
        mitigate the risk of nuclear detonations or space weapons.
Space Data Association--Industry Collaboration on Safety of Flight \4\
---------------------------------------------------------------------------
    \4\ Some of the material in this section was previously published. 
See: DalBello, Richard. (2011). Managing Risks In Space. Federation of 
American Scientists. Retrieved from https://www.fas.org/pubs/pir/
2011winter/2011Winter-ManagngRiskinSpace.pdf.
---------------------------------------------------------------------------
    Since the launch of Sputnik in 1957, governments and commercial 
companies have placed thousands of satellites in orbit around the 
Earth. Most of them have long since burned up reentering the atmosphere 
or disintegrated into space debris. Today, there are still more than 
16,000 active satellites and debris objects in the public catalog of 
tracked objects.
    The region of space near Earth in which satellites orbit is so 
large--extending out 22,200 miles for commercial satellites--that one 
might believe a collision of orbiting spacecraft would be impossible. 
However, just four years ago, a satellite operated by Iridium 
Communications for the company's global communication network collided 
with an uncontrolled Russian spacecraft that had been out of service 
since 1995. The collision, 490 miles above Siberia, produced over 2,000 
pieces of debris larger than 10 centimeters (3.9 inches) in diameter, 
each one large enough to destroy any orbiting satellite in its path.\5\
---------------------------------------------------------------------------
    \5\ NASA Orbital Debris Quarterly News, July 2011.
---------------------------------------------------------------------------
    To avoid collisions in the increasingly crowded orbital arcs, 
agencies and companies operating satellites have informally shared 
position and orbit data for many years. One problem with this informal 
information sharing is that satellite operators don't use the same 
standard to represent the position of a satellite in orbit or an object 
in space. Many different types of software are used to track and 
maneuver satellites and the data is stored in a variety of formats. So 
even operators who wish to share data can't rely on a single, agreed-
upon protocol for sharing information. As a result, operators sharing 
information must maintain redundant file transfer protocols and tools 
to convert and reformat data so that it is consistent with their own 
software systems to compute close approaches. As the number of 
satellite operators increases, the problem of maintaining space 
situational awareness grows more complex. And the smallest operators 
may not be able to afford, or have the technicians, to participate in 
the data sharing process.
    Recently, the world's leading commercial satellite operators formed 
the Space Data Association (SDA) to formalize the process of exchanging 
information and to deal with the overall data compatibility problem. 
One way to minimize risk in space is for all operators to share what 
they know about the movement and position of their own satellites in a 
way that all other companies can use. While this sounds like common 
sense, governments and commercial companies around the world have each 
historically acted predominantly on their own in launching and 
monitoring satellites. Agencies and companies coordinate frequency 
allocation and orbital slots prior to launch, but once a satellite is 
in orbit, data about the movement of commercial satellites was shared 
only informally until the establishment of the SDA. Information about 
the operation and location of many military and intelligence satellites 
is still shrouded in secrecy.
    The most critical times to share data about satellites are when a 
new satellite is being placed in orbit or an existing satellite is 
being shifted from one orbital slot to another. A typical 
communications satellite is as big and heavy as a loaded semi-trailer, 
and though it appears fixed above the Earth, it is actually traveling 
thousands of kilometers per hour. Putting a satellite into an orbital 
slot or moving it to another position above Earth without disturbing 
any of the other 250+ commercial communications satellites in the GEO 
\6\ plane, as Intelsat routinely does, is a very delicate operation. 
Yet this process is managed entirely by commercial operators using 
informal, de facto rules developed through experience and implemented 
by consensus.
---------------------------------------------------------------------------
    \6\ Most commercial and military satellites operate in one of two 
orbit planes. The first, low-Earth orbit (LEO), is between 160 and 
2,000 meters (100-1,240 miles) above Earth's surface. The other, 
geostationary Earth orbit (GEO), is a circular orbit 35,786 kilometers 
(22,236 miles) above the equator.
---------------------------------------------------------------------------
    The formation of the SDA is a major step toward creating a 
voluntary ``space traffic control'' system for space. The SDA is an 
interactive repository for satellite orbit, maneuver, and payload 
frequency information.\7\ The SDA's principal goal is to promote safe 
space operations by encouraging coordination and communication among 
its operator participants. Through the SDA's Space Data Center, the 
satellite operators maintain the most accurate information available on 
their fleets; augment existing government-supplied data with precise 
orbit data and maneuver plans; and retrieve information from other 
member operators when necessary. As a result, the data center:
---------------------------------------------------------------------------
    \7\ See: www.space-data.org.

  <bullet> Enhances Safety of Flight. The SDA aims to preserve the 
        space environment by rapidly and automatically sharing 
---------------------------------------------------------------------------
        information about the positions of satellites in space.

  <bullet> Reduces Radio Frequency Interference. Radio frequency 
        interference--both intentional and accidental--is the number 
        one operational problem facing communication satellite 
        companies today. By sharing the precise location of commercial 
        satellites and the configuration of their payloads, operators 
        can more rapidly find and address interference sources.

  <bullet> Simplifies Communication in a Crisis. Before creation of the 
        SDA, the world's satellite operators had no authoritative index 
        of contact information for engineers actually controlling 
        another company's satellites. Although there was always a great 
        deal of informal communication, the SDA has standardized and 
        automated the information necessary to communicate between 
        technicians in operations centers during a crisis.

    Because of the proprietary nature of the operational data, the SDA 
has been designed to protect information and prevent participants from 
using for commercial purposes the data supplied by other operators. The 
participants of the SDA contribute operational data through a secure 
interface on a daily basis and can access data related only to the 
operation of their own satellites. For example, an operator who only 
has satellites covering Latin America cannot access data from other 
parts of the globe.
    So far, the SDA has 21 contributing operators and maintains precise 
position information on 267 satellites in GEO, and another 90 
satellites in LEO. Additionally, both NASA and NOAA joined the SDA in 
2012. The greater the participation of the SDA, the more comprehensive 
the data and the resulting analysis will be. As new satellite operators 
continue to join the SDA, the data center will continually improve its 
reliability in all satellite arcs and develop into a truly global and 
comprehensive database for space situational awareness.
    Several years ago, the U.S. Government began providing the public, 
including satellite operators, with satellite position data gathered, 
using radars and sensors, by the U.S. Strategic Command (USSTRATCOM). 
The position information provided initially for close-approach 
monitoring, called two-line element (TLE) data, had several drawbacks. 
First, there was no fixed standard for TLE interpretation. Second, TLE 
data did not have the required accuracy for credible collision 
detection. Recently, USSTRATCOM developed a procedure for providing 
satellite operators with more comprehensive information in the form of 
conjunction summary messages (CSMs). These CSMs are used to warn 
operators whose satellites have been identified by STRATCOM as closely 
approaching another space object.\8\ These CSMs contain vector and 
covariance information computed from other data, making them more 
accurate than TLEs.
---------------------------------------------------------------------------
    \8\ Statement of Major Duane Bird, USAF, U.S. Strategic Command to 
AMOS Conference, September 2010.
---------------------------------------------------------------------------
    However, recent studies funded by Intelsat and SES have concluded 
that to ensure the highest level of accuracy, it would be beneficial 
for USSTRATCOM to incorporate data from routine satellite maneuvers. 
The SDA has offered to augment the global data maintained by USSTRATCOM 
with more precise operator-generated data to improve the accuracy of 
conjunction monitoring. The SDA could also provide a standardized 
method and focal point for operators to share information and 
facilitate communications between satellite operators and governments 
interested in making available timely space object catalogues. 
Hopefully, with the passage of time, the U.S. and other governments 
will be able to fully capitalize on this industry-sponsored and funded 
initiative. Solving the problem of government/industry data sharing and 
the role of the SDA should be a key objective of future international 
discussions on this topic.
    Another major risk to operators is the proliferation of orbital 
debris from rocket stages, defunct satellites, equipment lost by 
astronauts and the fragments left from explosions and collisions of 
satellites. For example, Vanguard 1, launched by the United States in 
1958, is expected to remain in orbit at least another 200 years before 
slowly burning up as it drifts down into the atmosphere.\9\ The debris 
problem is most severe in low-earth orbit (LEO), where the majority of 
satellites used for communications and remote sensing operate. Because 
these satellites are not geostationary, multiple satellites, rather 
than a single satellite, are required to provide continuous coverage of 
any given area.
---------------------------------------------------------------------------
    \9\ NASA's National Space Science Data Center.
---------------------------------------------------------------------------
    While governments were the first to send satellites to near-Earth 
space, commercial enterprises and consumer services will be the primary 
users of the orbital arcs in the 21st century and, hopefully, beyond. 
Consequently, governments and companies operating spacecraft need to 
take a more collaborative approach to enhancing the safety and efficacy 
of the space environment. The Space Data Association is the major step 
on this path, and that step should be followed by firm actions of 
governments and all space users to create an international framework 
that assures the preservation of this valuable resource.
Radio Frequency Interference
    Radio frequency interference (RFI) is a serious problem that costs 
the satellite industry millions of dollars each year. The users of 
satellite services routinely state that RFI is the single most 
important issue relative to their use of satellite services.\10\ RFI 
disrupts television signals, data transmissions and other customer 
services, requiring significant operator resources and hindering 
business growth. Interference has a financial impact as well to 
satellite operators and users. When there is interference on a 
satellite, there is revenue lost due to the reduction of available 
bandwidth and power capacity. Expenses are increased, ranging from the 
purchase of interference monitoring or geolocation equipment to hiring 
and dedicating personnel to interference mitigation.
---------------------------------------------------------------------------
    \10\ Intelsat. (2012). Carrier ID Wins a Gold Medal at the 2012 
Summer Olympics. [Blog]. Retrieved from http://www.intelsatgeneral.com/
blog/carrier-id-wins-gold-medal-2012-summer-olympics.
---------------------------------------------------------------------------
    Intelsat has played a lead role in global efforts of commercial 
satellite operators to foster an interference-free space environment. 
Intelsat is working with satellite operators, industry groups, 
customers and equipment manufacturers to make RFI reduction a top 
priority.
    There are both long-and short-term causes of interference.\11\ 
Long-term interference typically occurs between two adjacent satellites 
and can be caused by lack of coordination between users, outdated or 
poorly designed equipment, or small mobile antennas. Terrestrial 
sources, such as microwave links or radar signals may also cause long-
term satellite interference. Although it has been rare, interference 
can also be the result of deliberate, politically motivated actions, 
such as the recently-reported Iranian jamming of certain western 
broadcasts. Short-term interference typically results from poor 
training and operator error. Over 80 percent of interference events 
experienced each year result from some form of user error. Proper 
training is critical for reducing RFI incidents. A majority of RFI 
incidents are attributed to faulty installation practices, uplink 
errors and poor equipment maintenance regimes. Intelsat and other 
leading operators are endorsing new, comprehensive training and 
certification programs to educate technicians on proper equipment 
installation and operational parameters.
---------------------------------------------------------------------------
    \11\ Carrier ID Using MetaCarrier Technology, ComTech white paper, 
http://www.comtechef
data.com/
---------------------------------------------------------------------------
    One concept recently embraced by the global satellite industry is 
the deployment of ``Carrier ID'' technology to help identify the 
interference source. Carrier ID is a stamp on uplink signals that 
enables satellite operators to more efficiently trace the source of 
transmissions to their satellites and thereby speed the remediation of 
any signal interference. Carrier ID would be on every carrier 
transmitted to the satellite. It is a small identification that may 
include the operator name, the contact's telephone number, or the modem 
serial number. The goal is that, at any given monitoring location, a 
single system can extract the Carrier ID for any and all carrier types 
where Carrier ID insertion has been provided. This will allow satellite 
operators to communicate directly with the RFI source to resolve the 
incident.
    The 2012 Summer Olympics in London were the most-watched television 
event in U.S. history, attracting over 219 million viewers over 17 days 
of coverage. The London Games were also a perfect opportunity to test 
Carrier ID technology. The major satellite providers all deployed 
Carrier ID with positive results.
    In addition, the Olympic experiment served as a test bed for a 
Carrier ID Database. This database was developed in partnership with 
SDA as an adjunct to the existing work of the organization. The open 
exchange of operational data is imperative for critical satellite 
operator procedures, including RFI identification, analysis and RFI 
geolocation. The Carrier ID Database was designed to be complementary 
to the other services of the SDA. When implemented, the SDA could then 
provide a central repository where satellite operators can standardize, 
formalize and automate data collection.
    Although the commercial satellite operators have devoted a 
considerable amount of time and resources to the issue of RFI and 
although this issue is of high importance to the U.S. Government, there 
has been very little real coordination on this topic or the larger 
spectrum topics that face all satellite users. Both DOD and industry 
are under pressure in the U.S. and around the world to release valuable 
spectrum, or to share spectrum, with the fast-growing terrestrial 
wireless industry. As stated above, DOD relies on the commercial sector 
for the vast majority of its satellite communications requirements, 
including virtually all of its beyond-line-of-sight UAV communications. 
The commercial satellite operators have made a number of proposals for 
more creative sharing regimes, such as hosted payloads and DOD 
spectrum-specific commercially operated satellites. To date, DOD has 
been reluctant to embrace any of these forward-leaning proposals.
Solar Weather Effects on Satellites
    The sun is the dominant element in the determination of ``space 
weather'' and satellite operators monitor the sun's activities in order 
to improve their ability to respond to the impact of solar events.\12\ 
There is, occasionally, speculation that the partial or complete 
disabling of a communications satellite might have been the result of a 
solar effect. Such reports are the result of analysis and speculation 
since physical analysis of the satellite is impossible. For the most 
part, satellite manufacturers build their products to operate in the 
sometimes-harsh environment of space and satellite operators have come 
to assume that their satellites will withstand such ``weather'' events. 
The goal of satellite fleet operators has been to identify and 
effectively counter the sun's link to so-called single-event upsets 
(SEUs), which happen whenever the performance of one or more spacecraft 
components abruptly changes without warning.
---------------------------------------------------------------------------
    \12\ Intelsat. (2013). Solar Weather [White Paper]. Retrieved from 
www.intelsat.com/tools-resources/satellite-basics/solar-weather/
---------------------------------------------------------------------------
    Solar researchers, space weather forecasters and satellite 
operators focus on four elements of solar weather that can affect 
satellite communications: solar wind, coronal holes, coronal mass 
ejections (CMEs) and solar flares. The solar wind is constant but 
varies in intensity, while the other three solar phenomena are more 
highly variable. SEUs are not apt to be caused by the solar wind 
itself, which is relatively low in energy and seldom penetrates the 
outer layers or protective skin of a spacecraft. Instead, coronal 
holes, CMEs and solar flares can be more potentially disruptive. When 
solar storms erupt, they can bombard a satellite with highly-charged 
particles and increase the amount of charging on the spacecraft's 
surfaces.
    Coping with electrostatic discharges from the sun that can 
potentially disrupt satellite services are part of the everyday reality 
of the satellite world. Losing solar power is not a serious concern 
whereas losing total control and command of a satellite as the result 
of solar weather is the most severe effect. Solar panels on satellites 
are the most affected components, and normal erosion rates for solar 
panels are usually 0.3 percent to 1 percent per year. A solar storm can 
reduce solar panel performance by 3 percent to 5 percent in a day, but 
since this phenomenon is well understood, spacecraft manufacturers 
increase the tolerances by design, and attach larger than needed solar 
panels to a satellite in order to allow for losses during the 
anticipated solar storms.
    The body of a communications satellite, which contains vital 
control and communication components, is built with special materials 
as well as active and passive measures so as to be highly resilient to 
the sun's effect. A so-called ``Faraday Cage'' protects the satellite's 
internal equipment from external electrical charges. High-energy 
particles discharged by the sun rapidly lose strength as they pass 
through the multiple layers of a spacecraft's body or bus as well. 
There, they encounter a series of specially designed circuit dividers, 
individual compartments, and other unique structural elements that act 
as protection barriers.
    The disruptive nature of solar weather impacts far more than 
satellite operations, and adversely affects terrestrial power and 
communications grids. For these and other reasons, a considerable 
amount of manpower and money has been devoted to monitoring the sun's 
activity, and more research into solar phenomena in general is planned 
in the future. Among other things, one benefit has been a steady 
improvement in our ability to rapidly detect and track these solar 
events using powerful observation and detection systems both on the 
ground and in space.
    NASA, the U.S. National Oceanic and Atmospheric Administration 
(NOAA) and the DOD oversee much of this activity. For example, besides 
NASA's twin Solar Terrestrial Relations Observatory (STEREO) 
spacecraft, the Air Force Research Laboratory launched the 
Communication/Navigation Outage Forecasting System (C/NOFS) satellite 
several years ago to forecast the presence of ionospheric 
irregularities caused by the sun that adversely impact communication 
and navigation systems. Ground-based measurements also assist in space 
weather monitoring.
    Satellites depend upon the sun, and satellite operators have 
steadily developed tools and techniques that allow them to ensure the 
operational integrity of all satellites in the face of all forms of 
solar weather. Thanks to proper planning, design and execution, solar 
events have had, to date, little impact on commercial satellite 
operations.
Conclusion
    Dependable and ubiquitous satellite communication services are 
critical both to the global economy and to the national security of the 
United States. Because of the large capital investments required to 
design, build, launch and operate satellites, commercial operators have 
a vested interest in doing all they can to protect their spacecraft in 
orbit from the real threats posed by other objects in space, signal 
interference, solar weather, cyber-attack and intentional jamming. The 
U.S. Government also has billions of dollars invested in communications 
satellites and shares the industry's desire to protect its critical 
satellite communications capability. Because the Government relies so 
heavily on commercial satellite capacity, a spirit of cooperation is 
required to maintain the overall safety of the global satellite fleet, 
both commercial and Government owned.
    Determining the orbit of objects near GEO is a complex task, 
particularly for uncooperative objects. As the population of objects in 
the GEO neighborhood grows, maintaining a secure and highly accurate 
catalog of all objects becomes increasingly important to mitigate risk 
of collision and for security of high value assets. The current Space 
Surveillance Network (SSN) capabilities for tracking these objects are 
subject to a number of constraints--particularly weather, scheduling, 
geographic diversity dispersion and overall capacity--which leave the 
current GEO catalog in significant need of improvement. Recent efforts, 
within SDA, to share owner-operator data provide clear proof of the 
value of collaboration.
    The Space Data Association was established to allow all satellite 
operators to cooperate in tracking known objects in space. While NASA 
and NOAA have both joined in providing information to the SDA database, 
other U.S. Government agencies--most particularly, the U.S. Department 
of Defense--have not yet chosen to participate.
    In its next evolution, the SDA will employ the resources and 
relationships it has developed to address the growing issue of radio 
frequency interference. While the user error that causes most RFI 
incidents will never be completely prevented, commercial operators now 
are deploying Carrier ID and developing other tools in place to quickly 
solve interference problems. However, this only applies to commercial 
satellites. Currently, there is little coordination between Government 
and industry when government-owned satellites are involved. This is an 
area where better cooperation could ensure that space assets are 
available to all users when they are needed.
    In creating the SDA, the private sector has taken the first step 
towards a new paradigm for managing risk in space, but to be most 
effective, far more cooperation is needed by both commercial and 
government satellite operators worldwide.

    Senator Nelson. And we will want to know, Mr. DalBello, how 
you ``safe'' your satellites when there is a solar flare.
    Dr. Johnson-Freese?

   STATEMENT OF DR. JOAN JOHNSON-FREESE, PROFESSOR, NATIONAL 
            SECURITY AFFAIRS, U.S. NAVAL WAR COLLEGE

    Dr. Johnson-Freese. Thank you. It is my pleasure and honor 
to speak to the Committee today, just as it always is to speak 
to students and the public about space, which I do many times a 
year.
    I am going to take a slightly different approach to 
assessing risks, impacts, and solutions for space threats by 
talking about the threat of the American public not 
understanding the importance of space.
    From my course on space and security at Harvard to speaking 
to the public about the immediate importance of space activity 
in their lives, the number one comment I subsequently receive 
is, why don't we know this stuff?
    Space, based on my interactions with the public, is not the 
final frontier; it is not the next frontier. In 1997, I 
coauthored a book calling it the dormant frontier, but it is 
not really that either. Quite the opposite, given the ambitious 
work being done on the International Space Station and other 
activities, though I contend that that work is largely unknown 
to the public.
    Space is, however, for many Americans not living around a 
NASA center, a benignly neglected frontier. The problem with 
space and public support--support that translates into 
prioritized spending of their tax dollars--is that the public 
views space much as most people view their cars: they just want 
them to work. They don't care about the mechanics of a 
combustion engine or how to build or repair the car; they just 
want to drive the car.
    Similarly with space, because of the resounding success of 
NASA and other organizations responsible for putting 
substantial space infrastructure into orbit, Americans--indeed, 
people all over the world--use their ATM cards, use GPS in 
their cars and boats, and rely on the Weather Channel to tell 
them whether they should carry an umbrella, totally oblivious 
to the role that space assets play in providing that 
information.
    So, in that regard, the immediate benefits of space 
activity are not forgotten to most of the public; perhaps that 
knowledge was never known in the first place.
    Space is associated largely with exploration, and so 
considered expendable during times of economic restraint, 
something that can be put off until later. But that premise is 
incorrect, even regarding exploration. Infrastructure isn't 
built or launched quickly, and, once in orbit, it must be 
maintained and updated.
    Though, because they use it, the public is familiar with 
some satellite systems, like GPS, but less familiar with 
others. For example, the probes that study radiation belts and 
satellites that watch for the solar storms to protect other 
satellites in terrestrial electrical grids are essential. 
Unfortunately, however, the public generally views these space 
activities as little more than interesting science projects, if 
they know about them at all.
    Yet, without them, Americans' lives would fundamentally 
change. Let me explain with a few brief examples. GPS is, with 
the Internet, one of only two global utilities. It facilitates, 
for example, having emergency response vehicles reach their 
destinations by the shortest routes, potentially saving lives; 
for transoceanic air travel to be safer and more efficient 
because planes can fly closer together; and if the new 
satellite-reliant air traffic control system is implemented, 
reduce jet fuel consumption by 1 million barrels annually, 
saving both money and the environment; and it saves the 
trucking industry an estimated $53 billion annually in fuel 
costs and better fleet management.
    In addition to the economic benefits of space, which are 
vital to the national interest, there are also direct security 
implications. Politically, the recent meteorite that hit the 
Russian Urals with the force of an atomic bomb was a stark 
wake-up call regarding threats from space and certainly raised 
the importance of space surveillance and the communication of 
those threats.
    Given the complex political state of the world, it is 
clearly imperative that government officials have accurate 
scientific data to distinguish between meteorites and missile 
attacks. Since miscalculation is a historic cause of war, we 
must be aware of what is going on in our solar system.
    The military benefits of space are too lengthy to be 
catalogued in a short period of time, but suffice it to say 
that every letter in the acronym which basically describes 
military operations, C4ISR--command, control, communication, 
computers, intelligence, surveillance, and reconnaissance--is 
reliant on space assets. Space surveillance allows the military 
to have eyes and ears into locations otherwise inaccessible and 
on a 24/7 basis.
    Geostrategically, America is hindered by our own success 
with Apollo. Especially in tough economic times, many Americans 
view space exploration with a been-there-done-that attitude. 
But for the rest of the world, space still represents the final 
frontier, the future, and, consequently, global leadership. 
Space capabilities add to U.S. prestige and soft power, which 
has spillover into U.S. influence in multiple policy areas.
    Two final questions tie many of these issues together and 
hopefully illustrate why a vigorous space program must be 
maintained.
    First, would China have conducted a high-altitude kinetic 
ASAT test in 2007, with the resultant debris threatening the 
sustainability of the space environment, if it had been a 
partner on the International Space Station?
    Second, if called upon to deflect a meteorite threatening 
Earth, are the technologies in place to do so, and are the 
mechanisms in place so it could be done without a geostrategic 
nightmare?
    In conclusion, America will stay ahead in space and, thus, 
capable of addressing these economic, political, military, and 
geostrategic risks and threats by staying active and staying 
ahead. Therefore, we must remind the American people and 
remember ourselves that space exploration and development is 
not expendable; it is in our strategic national interest.
    [The prepared statement of Dr. Johnson-Freese follows:]

 Prepared Statement of Dr. Joan Johnson-Freese,\1\ Professor, National 
                Security Affairs, U.S. Naval War College
---------------------------------------------------------------------------
    \1\ The views expressed here are the author's alone and do not 
represent the official position of the Department of the Navy, the 
Department of Defense or the U.S. Government. The author thanks the 
Naval War College EMC Chair for its support to participate in this 
hearing.
---------------------------------------------------------------------------
    It is my pleasure and honor to speak to this Committee today, just 
as it is my pleasure and honor to speak to students and the public 
about space many times each year. Based on that interaction with the 
public, I'm going to take a slightly different approach to assessing 
Risks, Impacts & Solutions for Space Threats by talking about the 
Threat of the American Public Not Understanding the Importance of 
Space. From my course on Space & Security \2\ at Harvard Extension and 
Summer Schools, to speaking at the Mid-Coast Forum in Maine \3\ in 
December 2012, and to the Blue Water Sailing Club earlier this 
month,\4\ the number one comment I receive after talking about much the 
same material covered in my oral and written testimony today--the near-
term importance of space to every American--is, ``why don't we know 
this stuff?''
---------------------------------------------------------------------------
    \2\ After teaching this course in during the Fall Semester 2011 at 
Harvard Extension School--with a student population rich in diverse 
student backgrounds and perspectives--I wrote an article about student 
attitudes. See: ``Guest Blog: Views on Space From an (Rare) Informed 
Public,'' Space News, January 5, 2011.
    \3\ http://www.midcoastforum.org/speakers/dr-joan-johnson-freese
    \4\ http://www.bluewatersc.org/news/27/BWSC-Visits-U-9S-Naval-War-
College-Newport/
---------------------------------------------------------------------------
    Space, in my opinion and based on my interactions with the public, 
is not the final frontier, and it is not the next frontier. In 1997 I 
co-authored a book calling it the dormant frontier \5\ but that isn't 
really correct either--quite the opposite given the ambitious and 
effectual work being done on the International Space Station (ISS). I 
would posit though that few Americans are even aware of work being done 
on the ISS. If the general public is more than casually aware of the 
ISS at all, it is as a lame-duck program waiting to be de-orbited some 
time in the near future. Space, for many Americans not living around a 
NASA Center, is largely a benignly-neglected frontier.
---------------------------------------------------------------------------
    \5\ Joan Johnson-Freese and Roger Handberg, Space: The Dormant 
Frontier, Praeger, 1997.
---------------------------------------------------------------------------
    The problem with space and public support, support as it translates 
into support for prioritized spending of their tax dollars, is that the 
public views space much as they view their cars. When they get into 
their cars, they just want it to run. They don't care about the 
mechanics of a combustion engine, or how to build or repair a car, they 
just want to drive it.
    Much the same way with space, because of the resounding success of 
NASA and other organizations that have been responsible for putting 
space infrastructure into orbit, Americans--indeed people all over the 
world--use their ATM cards, use GPS in their cars and boats, and rely 
on the Weather Channel to tell them whether to wear a coat- totally 
oblivious to the role that space assets play in providing that 
information. I have had people ask me why the United States should 
invest in more weather satellites, when we already have the Weather 
Channel, unaware of the connection. So in that regard, the immediate 
benefits of space activity are forgotten to most of the public, or 
perhaps that knowledge was never known in the first place. Space is 
associated largely with exploration, and so considered ``expendable'' 
during times of economic restraint; something that is desirable and 
exciting to do, but can be put off until later.
    But that premise is incorrect--even regarding exploration, as I 
will point out regarding the geostrategic importance of space. 
Infrastructure doesn't go up quickly--and once in orbit infrastructure 
must be maintained, and updated. And while some satellites--like GPS--
are relatively easy for at least some of the public to understand 
because of they use it, other systems are less obvious. For example, 
the probes that study radiation belts and satellites that watch for 
solar storms to protect satellites and terrestrial electrical grids are 
essential.\6\ Unfortunately though, the public generally views these 
activities as little more than interesting science projects, if they 
know about them at all. Yet, without them Americans' lives would 
fundamentally change. Let me to explain with a few brief examples.
---------------------------------------------------------------------------
    \6\ Lisa Grossman, ``NASA's tentacle spacecraft will probe solar 
storms,'' New Scientist, August 9, 2012. http://www.newscientist.com/
blogs/shortsharpscience/2012/08/tentacled-spa
cecraft-will-prob.html
---------------------------------------------------------------------------
    GPS is--with the Internet--one of only two global utilities. Its 
usage allows us to, for example:

  <bullet> use our ATM cards wherever we are in the world,

  <bullet> to buy gasoline at the pump using a credit card,

  <bullet> for emergency response vehicles to reach their destinations 
        by the shortest possible route, potentially saving lives,

  <bullet> for trans-oceanic air travel to be safer and more efficient 
        because planes can fly closer together, and if the new 
        satellite reliant air traffic control system is implemented, 
        reduce jet fuel consumption by 1 million barrels annually--
        saving both money and the environment \7\
---------------------------------------------------------------------------
    \7\ Ann Schrader, ``Air Traffic Control's Next Generation May Give 
Airlines' Fuel-Saving, Fliers a Lift, September 7, 2011, The Denver 
Post, http://www.denverpost.com/business/ci_18840006

  <bullet> and save the trucking industry an estimated $53B annually in 
        fuel costs and better fleet management.\8\
---------------------------------------------------------------------------
    \8\ Eric Ogden, ``Study: GPS Could Save the Trucking Industry $53 
Billion,'' July 1, 2008. http://www.informationweek.com/mobility/
business/study-gps-could-save-trucking-industry-5/229211071

    In addition to the economic benefits of space, which are vital to 
the national interest, there are direct security implications of space.
    The recent meteorite that hit in the Russian Urals with the force 
of an atomic bomb was a stark wake-up call regarding threats from 
space, and certainly raised awareness about the importance of space 
surveillance and the communication of threats. Press reports talked 
about the panic experienced by local residents, including that the 
world was coming to an end, and that one Russian official blamed the 
event on the United States.\9\ Given the complex political state of the 
world, it is clearly imperative that government officials have accurate 
scientific data to distinguish between meteorites and missile attacks. 
Since miscalculation is a historic cause of war, we must be aware of 
our solar system.
---------------------------------------------------------------------------
    \9\ Associated Press, ``About 1,100 injured as meteorite hits 
Russia with the force of an atomic bomb,'' February 15, 2011. http://
www.foxnews.com/science/2013/02/15/injuries-reported-af
ter-meteorite-falls-in-russia-ural-mountains/
---------------------------------------------------------------------------
    The military benefits of space are too lengthy to be briefly 
catalogued, but suffice it to say that every letter in the acronym 
which basically describe military operations, C4ISR--Command, Control, 
Communication, Computers, Intelligence, Surveillance and 
Reconnaissance--is reliant on space assets. Space surveillance allows 
the military to have eyes and ears into locations otherwise 
inaccessible, on a 24/7 basis. It is also important to note that an 
estimated 80 percent of military communications is carried on 
commercial satellites,\10\ making it imperative that the private space 
sector be kept healthy and viable. Without space-based assets, the 
United States would simply cease to be a superpower.
---------------------------------------------------------------------------
    \10\ Stew Magnuson, ``Military Space Communications Lack 
Direction,'' Space Daily, January 7, 2013. http://www.spacedaily.com/
reports/Military_Space_Communications_Lacks_Direction
_999.html
---------------------------------------------------------------------------
    Geostrategically, America is hindered by our own success with 
Apollo. For many Americans, unfortunately, space exploration is viewed 
from a kind of been-there/done-that perspective. But for the rest of 
the world, space activity and space exploration still represents the 
Final Frontier, the Future, and, consequently, Global Leadership. Space 
capabilities add to U.S. prestige and soft power, which has spillover 
into U.S. influence in multiple other policy areas.
    The U.S. is the global leader in space--one need only look at both 
the quantity and quality of spacecraft the U.S. has in orbit to verify 
that--but the U.S. has in some cases already lost the perception of 
being the leader in space, ceding that position to China.\11\ The 
prospect of a U.S.-China Space Race has titillated the press and 
pundits for several years.\12\<SUP>,</SUP>\13\ But the U.S. will cede 
space leadership to China not from the lack of scientific and technical 
potential or capacity in the United States, but due to the lack of 
political will to maintain it.\14\
---------------------------------------------------------------------------
    \11\ ``China eyes lead in international space race,'' CBS News, 
July 11, 2011. http://www.cbsnews.com/2100-205_162-20078365.html; Clara 
Moscowitz, ``US is losing in race to its own Moon,'' Space.Com, October 
19, 2011. http://www.space.com/13331-china-space-race-moon-ownership-
bigelow-ispcs.html;
    \12\ Peter Ritter, ``The New Space Race: China vs the US,'' Time, 
February 13, 2008. http://www.time.com/time/world/article/
0,8599,1712812,00.html; Clara Moscowitz, ``US & China: Space Race or 
Cosmic Cooperation,'' Space.Com, September 27, 2011, , http://
www.space.com/13100-china-space-program-nasa-space-race.html: Daryl 
Morini, ``The Coming U.S.-China Space Race,'' The Diplomat, August 15, 
2012. http://thediplomat.com/china-power/a-u-s-china-space-race-in-the-
offing/
    \13\ Even in Russian press reports on the recent testimony of U.S. 
Director of National Intelligence James Clapper to the Senate 
Intelligence Committee, differing Russian views were given regarding 
whether China will try to threaten U.S. access to space, or whether 
threats are being hyped in the U.S. for budget purposes. ``Will China 
Surpass the USA in Space?'' Voice of Russia, March 13, 2013. http://
english.ruvr.ru/2013_03_13/Will-China-surpass-the-USA-in-space/
    \14\ Joan Johnson-Freese, ``Will China overtake America in Space?'' 
CNN, June 20, 2012. http://www.cnn.com/2012/06/20/opinion/freese-china-
space
---------------------------------------------------------------------------
    Two final questions tie many of these issues together, and 
hopefully illustrate why a vigorous space program must be maintained.
    First, would China have conducted a high-altitude kinetic ASAT test 
in 2007--with the resultant debris threatening the sustainability of 
the space environment--if it had been a partner on the ISS? This 
certainly question begs consideration of the best approach to dealing 
with Chinese space ambitions:\15\ by cooperation, competition, or 
attempted isolation, the latter unlikely to be successful. The Baker 
Institute at Rice University recently recommended that China be 
included in the ISS partnership,\16\ a recommendation with which I 
strongly concur. Ironically, however, there are individuals in the 
Chinese space and foreign policy communities who, though once 
interested in such a partnership, have lost interest because they feel 
the U.S. politics are too fickle for the U.S. to be a reliable partner, 
and consequently would hinder their own ambitious domestic space 
exploration efforts.
---------------------------------------------------------------------------
    \15\ Joan Johnson-Freese, ``A Long March Into Space,'' Cairo 
Review, February 10, 2013. http://www.aucegypt.edu/gapp/cairoreview/
Pages/articleDetails.aspx?aid=297
    \16\ See: Marc Carreau, ``Think Tank Recommends Role for China in 
ISS,'' Aviation Week & Space Technology, March 13, 2013. http://
www.aviationweek.com/Article.aspx?id=/article-xml/asd_03_13_2013_p05-
01-558310.xml
---------------------------------------------------------------------------
    Second, if called upon to deflect a meteorite threatening Earth, 
are the technologies in place to do so, and are the mechanisms in place 
so it could it be done without it being a geostrategic nightmare? An 
International Space Code of Conduct \17\ is currently being considered 
by on a global basis. Secretary of State Hillary Clinton endorsed the 
concept on behalf of the United States, and the Pentagon is on board as 
well.\18\ This indicates recognition of a need for mechanisms or 
guidelines for international cooperation on space issues beyond 
national control, which encompasses nearly all space issues.
---------------------------------------------------------------------------
    \17\ Micah Zenko, ``A Code of Conduct for Outer Space,'' Council on 
Foreign Relations, http://www.cfr.org/space/code-conduct-outer-space/
p26556;
    \18\ Sydney Freedberg, ``Why the Pentagon Wants an International 
Code of Conduct for Space,'' AOL Defense, March 20, 2012, http://
defense.aol.com/2012/03/22/safe-passage-why-the-pentagon-wants-an-
international-code-of-c/
---------------------------------------------------------------------------
    Space is increasingly described as a congested, contested and 
competitive environment. It is undoubtedly all of those in one way or 
another, which inherently means America must stay actively engaged. For 
that engagement to be effective though, will require the addition of 
another ``C'' to that list of descriptors--cooperative, as space and 
space activity is also inherently international, intercultural and 
interdisciplinary in nature.
    In conclusion--America will only stay ahead in space and thus 
capable of addressing economic, political, military and geostrategic 
risks and threats, by staying active. We must remind the American 
people, and remember ourselves, that space exploration and space 
development is not expendable, it is in our strategic national self-
interest.

    Senator Nelson. Thank you to all of you.
    And I want to welcome--we have a number of emergency 
responders that are in the audience, a new kind of threat that 
we are talking about that they may have to respond to.
    And I suppose, in response to one of your questions, Dr. 
Johnson-Freese, that, as Senator Cruz had posed at the outset, 
maybe we ought to have Bruce Willis start doing another 
``Armageddon'' movie to get everybody sensitized to the fact of 
how space could well play such a huge consequence in our lives 
if one of these asteroids starts coming toward us.
    So let me turn to Senator Cruz.
    Senator Cruz. Well, thank you, Mr. Chairman. And there 
probably is no doubt that, actually, Hollywood has done more to 
focus attention on this issue than perhaps a thousand 
congressional hearings could do.
    [Laughter.]
    Senator Cruz. Although I would not wish a thousand 
congressional hearings on anyone.
    [Laughter.]
    Senator Cruz. You know, Dr. Green, Dr. Lu, I would like to 
go back to your testimony and get a little bit more in terms of 
the magnitude of the potential threat that near-Earth objects 
could present.
    February 18 we had the meteor strike in Russia. Did we have 
any real warning of that strike before it occurred?
    Dr. Green. Yes, it was February 15, it was really quite a 
special day because we actually had two events. The first one 
was a very close fly-by of a much larger asteroid that we call 
DA14. We had been watching that one for over a year, and we had 
calculated its orbit. We knew it was on a safe trajectory to 
pass by the Earth.
    Indeed, the much smaller meteorite of 17 meters in size 
that struck Russia was not observed prior to its entry into the 
atmosphere. It was on a very difficult trajectory for us to be 
able to see from ground-based telescopes and came basically in 
the sunward direction.
    So our telescopes operate from the ground in the evening, 
of course, on the night sky. One of the next major steps that 
has been now initiated by B612 is to provide a space-based 
asset that would plug that hole in a number of ways.
    This is why our public-private partnership is extremely 
important for us to be able to continue to be able to help B612 
with the Sentinel mission, to get up into space this decade, to 
then begin to observe many more of these objects that are on 
difficult orbits for us to see.
    Senator Cruz. If that same meteor, instead of striking a 
relatively rural area, had struck Manhattan, what would likely 
the consequence of that have been?
    Dr. Lu. This meteor exploded at altitude, 20 miles high or 
something like that, and, again, about 40 miles outside of the 
city. So, had it struck over a populated area, say, Washington 
or New York, it would have probably caused quite a few 
injuries, as it did over Chelyabinsk, but it wouldn't have 
taken out the city. It was too small to do that.
    But, as you could see, even from a distance of 40 miles, 
which is a very long distance, it basically blew in windows and 
doors. Every window in that city was busted. And remembering 
that the shockwave that caused that drops off very rapidly the 
further away you are from it, had that shockwave been much 
closer to a city, there would clearly have been a lot more 
injuries.
    Senator Cruz. Now, my understanding is we have identified 
nearly 1,000 near-Earth objects----
    Dr. Lu. Ten thousand.
    Senator Cruz. Well, nearly 1,000 that are a kilometer or 
more.
    Dr. Lu. Yes.
    Dr. Green. Correct.
    Senator Cruz. What would the consequences be of an impact 
from an object of that size?
    Dr. Green. Well, the large objects, the ones that are 1 
kilometer and larger, are actually very bright. Starting 15 
years ago from the 1998 congressional action, really these are 
the ones that we have been after. Indeed, we believe we have 
gotten well over 95 percent of them.
    What we do when we attain that information is we calculate 
their orbits out to more than 100 years. It is from that 
database that it is clear to us that those currently, the ones 
that we know of, will not pose a hazard. However, we are 
constantly monitoring them, and we constantly see them through 
our surveys.
    So, from that perspective, that speculation is just that: 
it is speculation. So what we want to continue to do is, of 
course, get into space, continue our program on the ground, and 
methodically, over a number of years, complete the survey so 
that we can see what the real threats are, rather than 
speculate.
    Senator Cruz. Now, Dr. Lu, you mentioned that you think our 
current knowledge is roughly 1/100th of what is out there?
    Dr. Lu. Yes, of those larger than the one that missed us on 
February 15, which is roughly the size of the one that struck 
in 1908.
    Senator Cruz. Yes.
    Dr. Lu. And so those are the ones that would be only large 
enough to take out a large city, for instance, not something 
that would kill off civilization or send us into the Dark Ages, 
but maybe only destroy New York City.
    And of those asteroids, we know well less than 1 percent of 
those. So right now the amount of warning time that we are 
likely to get from one of those is zero.
    Senator Cruz. And let me ask a final question. What is our 
capacity if we discovered a sizable asteroid that was on a 
collision course? What is our capacity right now to do 
something to change that?
    Dr. Lu. If you find it early, decades in advance, which is 
what the goal of NASA is to do and goal of the B612 Foundation 
is to do, we have many options. Then you only need to change 
its trajectory by a very, very tiny amount.
    Senator Nelson, you know from, you know, having flown in 
space, that when you are many orbits ahead of time, very tiny 
changes in your speed make big differences in the timing of 
where you are many orbits later. And that is exactly what you 
do. So, in real terms, if you change an asteroid's speed by 
something like a millimeter per second--you know, that is about 
the speed that an ant walks--and you do that 10 years or more 
decades before it is going to hit the Earth, you can make it 
miss the Earth.
    So that means all you basically really need to do is either 
run into it with a small spacecraft; it is called a kinetic 
impactor. You can tow them gravitationally using a small 
spacecraft called a gravity tractor. For the very larger ones, 
the kilometer-sized ones, you can use a nuclear standoff 
explosion. These are all technologies that we believe we know 
how to do.
    The key is, if you don't know where they are, there is 
nothing you can do. If you have less than a few years' notice, 
right now we have no options.
    Dr. Green. There is another aspect of this that I want to 
mention, and that is, these objects are very heterogeneous. 
They can be rubble piles. Their composition is quite different. 
Some have iron, some don't. Some are carbonaceous chondrites, 
stonies. Consequently, it is important to know what you are up 
against.
    In fact, this particular decade is a great decade for us to 
be able to do some of the research necessary that will 
contribute to potential mitigation concepts into the future.
    One mission is OSIRIS-REx. It is an asteroid-sample-return 
mission. It is going to an asteroid that is called RQ36, which 
is a potentially hazardous asteroid in more than a 150 or so 
years. But it gives us an opportunity to get up close to it, 
grab a sample. We will orbit it for more than 500 days. We will 
understand how the solar wind and the light from the Sun 
potentially moves the object.
    So this kind of study is essential for us to be able to 
really determine the potential mitigation strategies that we 
would use in, potentially, future missions that we may have to 
pull off.
    Senator Nelson. So, right now, until Dr. Lu gets his 
satellite up there in 5 years, we are just hoping that we can 
identify and then correctly calculate the trajectory that one 
of these asteroids would have.
    And assuming that we found one before you got your 
satellite up, let's go back to Senator Cruz's question: What 
would an asteroid that is a kilometer in diameter, what would 
it do if it hit the Earth?
    Dr. Lu. That is likely to end human civilization.
    Senator Nelson. So that was typical of maybe what hit at 
the time of the dinosaur age?
    Dr. Lu. No, that asteroid was yet much larger, another 
factor of 10 larger, 10 in diameter larger, which makes it 
1,000 times more massive. And that led to the extinction of 
essentially 90 percent of all species alive at the time. And 
those are quite rare. And so we do not know of anything that 
large that is on an impact trajectory.
    Senator Nelson. Does the fact, as we prepare to go to Mars 
and the stated goal of rendezvousing and landing and returning 
with a human crew from an asteroid, does that in any way help 
us perfect our ability to avoid this kind of catastrophe?
    Dr. Lu. I think, obviously, there is great science you can 
do. I think likely the deflection mission that we have to mount 
someday--and we will have to someday; we know that, someday--is 
likely to be done robotically, just because the distances are 
quite large from the Earth.
    But there is a connection between the two, in that, again, 
for the human missions to asteroids, you still need to find 
them. We do not currently have a set of good targets to run 
human missions to asteroids. So the same data set which allows 
us to know if something is going to hit Earth gives us targets 
for exploration.
    Dr. Green. Yes, in fact, visiting an asteroid by 
astronauts, for instance, is another one of those steps in 
terms of understanding much more about their characteristics. 
But the ability to do that is an enabling one. It is one of 
those where you trek outside of low-Earth orbit. You have a 
destination. You then go through a variety of processes and 
procedures that you would have to perfect on even longer 
voyages if you were to go to Mars.
    So there are different objectives with respect to that. 
But, indeed, learning much more about our heterogeneous 
asteroid environment is incredibly important.
    If I can just build on what Ed has mentioned, 50 years ago, 
planetary scientists believed that all the craters that are on 
the Moon were volcanic. We didn't know that they were of 
impact. It really took many years for us to be able to realize 
that they were created by impacts.
    Then, soon after that, we began to notice the impacts here 
on the Earth. The impacts, of course, led us to the Chicxulub 
Crater, which indeed now is believed to be one that has created 
the extinction of the dinosaurs. In the 4-1/2 billion years of 
this planet, there have been five extinction events, for which 
that one, we do believe, has been the one done by a near-Earth 
object.
    So over the last 50 years, we have learned an enormous 
amount about a brand new field, things that we needed to be 
aware of. And we have been putting in place a methodical 
program of observation by starting with the ground, by building 
on international partnerships, and also now with our public-
private partnership with B612.
    Senator Nelson. Well, until Dr. Lu gets his satellite up 
there, I hope you are paying your trajectory specialists well, 
Dr. Green.
    [Laughter.]
    Dr. Green. Indeed we are.
    Senator Nelson. Because they have to be right on the ones 
that we know to make sure we know their trajectory.
    Tell us, Dr. Lu, and don't worry, I am getting to the other 
two of you. Tell us about how we are going to nudge this thing. 
And what is the potential cost? And are we getting the 
international community understanding that they have to 
participate in this with us?
    Dr. Lu. Well, I think the--again, I mentioned the way you 
would likely do it, in most cases, is to simply run into it 
with a small spacecraft. Again, you would just need to change 
its velocity by a very, very, very tiny amount.
    Following that, you will probably want to hover a gravity 
tractor near it to verify that you have changed it the way you 
think you did and to make any fine-scale corrections on it, 
something like a vernier burn on the Space Shuttle. You would 
do that with a gravity tractor.
    The cost of that, such a mission, I would believe it would 
probably be in the range of a billion dollars or more; to do a 
couple of missions like that, probably a couple of billion. But 
I think you would have to compare it against the potential 
losses of a multi-megaton impact.
    Also, in terms of the ability for the United States to show 
leadership, clearly, such a thing would be led by the country 
that has the greatest technological capability, which is the 
United States and NASA in particular. I think the world will be 
involved in both the decisionmaking process and the actual 
implementation of such a thing.
    And I just, again, want to point out that there is a 30 
percent chance that there is a 5-megaton or so impact that is 
going to happen in a random location on this planet this 
century. So this is not hypothetical.
    Senator Nelson. By the way, why did this one in Russia 
explode at 20,000 feet?
    Dr. Lu. Tremendous deceleration. You know, when you are 
moving that fast--that thing was moving about 12 miles per 
second, and, at that speed, even hitting the air is like 
hitting concrete. And once it begins to come apart, it really 
rapidly comes apart, and it basically exploded.
    Senator Nelson. And back to Senator Cruz's question. Had 
that occurred 20,000 feet over New York City, other than 
blowing out windows, what would have happened?
    Dr. Lu. There would have been, obviously, many casualties. 
This one is a little bit harder to say.
    The one over Tunguska, the one that was slightly larger and 
the ones that I have been talking about, had that happened over 
a city, say New York City, we would have 7 million casualties, 
at least. Whatever the population in New York City is, they 
would be gone.
    Senator Nelson. Really?
    Dr. Lu. Yes. The area of destruction of that impact was 
about 800 square miles. So there is nothing standing in an 800-
square-mile-area forest where that impact occurred.
    Dr. Green. Just to be clear, Ed is talking about the event 
that occurred in 1908 called the Tunguska event.
    Dr. Lu. Yes, not Chelyabinsk.
    Dr. Green. That was a much larger meteorite.
    Senator Nelson. What was the size of it?
    Dr. Green. We estimate it was about 50 meters.
    Dr. Lu. Yes.
    Senator Nelson. Fifty meters.
    Dr. Lu. Yes.
    Dr. Green. Yes.
    Dr. Lu. A little bit larger than this room, about twice the 
size of this room.
    Dr. Green. Now, a 50-meter impact, we believe occurs on the 
Earth every few hundred years.
    So it is a rare event.
    Senator Nelson. The one over Russia was about the size of 
this room.
    Dr. Lu. Yes.
    Dr. Green. Seventeen meters.
    Senator Nelson. Did the one in 1908, did that hit the 
Earth, or did it explode in the air like this most recent one?
    Dr. Lu. It exploded in the air.
    Senator Nelson. I see. And the one that just entered the 
atmosphere over Russia, other than causing those windows --how 
many miles away from that little city in Siberia was it?
    Dr. Lu. Over 40 miles away.
    Senator Nelson. Wow. Did it flatten the forest?
    Dr. Lu. Not really, no, because it exploded at a higher 
altitude than the one in 1908. So it was a huge shockwave, 
which doesn't blow down trees but it certainly knocks in 
windows, as we saw.
    Senator Nelson. And if that one had exploded over New York 
at 20,000 feet--you were making reference to the 1908 one--what 
would that have done to Manhattan?
    Dr. Lu. If Chelyabinsk had exploded over New York City, we 
would have a lot more because it would be a lot closer than 40 
miles, obviously--then we would have a lot more than broken 
windows, that is for sure.
    Senator Nelson. Mr. DalBello, you have all these Intelsat 
satellites out there. What do you do to ``safe'' them when you 
have a solar explosion?
    Mr. DalBello. Well, that is an interesting question. The 
truth is that these satellites are on and they are operating. 
So a typical satellite today is probably about 70 percent, 
actually, 70 percent full, so operating near its full capacity. 
And it is transmitting pretty much 24 hours a day. So there is 
really no opportunity to turn them off without significant 
disruption to the service they are providing. That could be 
banking or media or the transmission of other important 
information or the flights of UAVs or communications with the 
military. So there is no real off switch on our satellites 
today. So they are on.
    So for us, the question is--and this gets back to the issue 
I was discussing earlier and the fascinating work that Dr. 
Green and Dr. Lu are doing. The question is always, how do you 
translate solar storm information into actionable warnings? 
When it is appropriate to translate information into practical 
warnings for industry?
    So in the solar example, a little bit more--I guess a 
little bit more practical than some of the discussion on the 
asteroids, but the same question applies. How do we know what 
level of solar event will translate into a real impact on the 
satellites that we are flying?
    Intelsat buys its satellites from the major manufacturers--
Boeing, Loral, Orbital--primarily here in the U.S. These 
manufacturers are, of course, trying to build their satellites 
to operate in any environment. And the good news is that most 
satellites live well beyond their 15-year design life, so the 
manufacturers are doing a great job.
    So the question for us is, at what point would an event be 
so extraordinary that we would say, ``Okay, it is dangerous to 
do something with the satellite now; we are not going to load 
code today, or we are not going to try to communicate with the 
satellite today, or we would maybe put the solar panels in a 
different orientation.'' These are issues that just aren't 
really very clear right now. So we would look to a 
collaborative effort with the manufacturers and the government 
to provide advice on this.
    Now, a similar thing happened in space debris. Several 
decades ago, NASA got very interested in understanding the 
debris environment. That led to the situation where we have 
today, where we actually get warnings from the Defense 
Department--they are called conjunction summary messages--we 
actually get warnings in advance if DOD thinks that there might 
be a collision between two space objects.
    But it took us a long time to connect the basic information 
that we needed to gather to have the knowledge to the point 
where we felt comfortable warning people that they might want 
to take specific action, in this case moving a satellite. So I 
think the same situation will apply with solar. As we get more 
sophisticated in understanding solar storm impacts, then we 
will be able to translate those into specific actions. But 
today that knowledge just doesn't exist.
    Senator Nelson. Senator Cruz?
    Senator Cruz. You know, going back to the discussion about 
potential meteor impacts, I would assume for an impact that the 
most likely place for an impact would be in water, given the 
percentage of the Earth that is covered by water.
    What is the relative severity of an impact on land versus 
an impact on water and the consequences that would flow from 
one versus the other?
    Dr. Lu. It depends on the size of the asteroid. To cause a 
tsunami, it actually has to be large enough to strike the 
surface. And, as we saw, the smaller asteroids do not strike 
the surface. They explode in midair, which is--so the smaller 
asteroids, when they are over land, that can be more 
catastrophic. For the larger asteroids, when they strike the 
water, that could potentially be more catastrophic. And the way 
to think about is, essentially, these larger ones create a 
crater in the water, which then fills in.
    So I don't know if you have ever been to Meteor Crater in 
Arizona. It was created by a small iron asteroid, and it is 
about 700 feet deep. It is about a kilometer across. And so, 
had that hit the water, you would have a 700-foot-deep crater 
in the water, momentarily, which then fills in. So you know the 
size of the wave; it would be about double that. You know, if 
you think of a rock dropping into a pond, right, you get a wave 
that is about twice the height of that. So you would get a 
1,000-foot wave or so, something like that, coming off of 
something like that, which then drops off the further away you 
get from it.
    So that is one of the great worries, especially with a 
couple hundred meter asteroids, the football stadium size 
asteroids. They are likely to hit in the ocean, and you are 
likely to have tsunamis. And, you know, as we saw in Fukushima, 
a tsunami can cause great damage and can affect--you know, that 
tsunami, which was not very large, historically speaking, had a 
noticeable effect upon world GDP because of damage that it did 
in one prefecture north of Tokyo.
    Senator Cruz. Do we have indication of near-Earth objects 
striking the water in the past and producing tsunamis?
    Dr. Lu. It must have happened before. It is a little bit 
difficult to distinguish a tsunami that was caused by an 
earthquake from one that was caused by an asteroid. At least, I 
mean, in the past, you know, in the historical record.
    Senator Cruz. And using the example you used about the size 
of asteroid that struck Arizona, if--and what was the size that 
we expect that was?
    Dr. Lu. The estimates of that are it is in the range of 
about 30 meters or so, so smaller than Tunguska but larger than 
Chelyabinsk.
    Senator Cruz. OK. But that would likely not be large 
enough--I guess there it did strike, so----
    Dr. Lu. There it did because----
    Senator Cruz.--it didn't explode in the atmosphere.
    Dr. Lu.--that one happened to be made out of iron, so it 
was a lot tougher than the stony ones, which can explode at 
higher altitudes. So even though that was smaller, it hit the 
ground.
    It is worth a visit, by the way.
    Senator Cruz. I have not been, but I will have to add it to 
the list of places to take my daughters, and hopefully it--
well, what are the odds of the same spot getting struck twice?
    [Laughter.]
    Dr. Lu. Pretty low.
    By the way, there is an interesting impact site in Texas, 
just--it is about 100 miles or so to the east of El Paso. We 
used to see it in our T-38s flying back from El Paso all the 
time. John Young and I used to like to fly over it. John loves 
impact craters.
    Senator Cruz. So, using that example, you said that if a 
similar impact were to occur in water, we would see a 1,000 
foot tsunami. What kind of distance would that be expected to 
travel where it would maintain----
    Dr. Lu. It depends greatly upon where. You know, the shape 
of the ocean bottom, the depth of the water, and so on. So I 
don't have a good answer for you.
    Also, the characteristics of that tsunami are going to be a 
little bit different than earthquake-caused ones, which we 
understand much better because those are sort of done by a line 
in a fault, whereas this is more of a point, more like dropping 
a pebble into a bathtub.
    And so the answer is, basically, it depends.
    Senator Cruz. You also testified about your estimates of 
the probability of a 5-megaton incident or a 100-megaton 
incident, which, if I remember right, was 30 percent and 1 
percent, respectively?
    Dr. Lu. Yes. In the next century, in this century, yes.
    Senator Cruz. Could you provide a little bit of the data 
that go into those probability estimates?
    Dr. Lu. Yes. Yes. In fact, that is--there is not a lot of 
scientific disagreement about that. This was documented well in 
the National Academies' report of 2010 called ``Defending 
Planet Earth,'' and that data comes from NASA. And there isn't 
a lot of dispute about that.
    And just for your information, where it comes from is from 
three different sources. You can count craters on the Moon. You 
can look at your asteroid surveys with telescopes. And, 
finally, there are DOD assets that look down upon the Earth for 
rocket launches and nuclear weapons tests, but mostly what they 
see is asteroid impacts that exploded in the atmosphere. And 
much of that data has been declassified.
    And those three independent means of measuring the numbers 
of asteroids agree with each other, and that is why we have 
fairly high confidence in it.
    Senator Cruz. Let me ask a final question, which is, in 
your professional judgment, and I would ask this to anyone at 
the panel who would wish to answer it, what else should we be 
doing to assess the threats that could seriously jeopardize 
human life and to be in a position to prevent those threats?
    Dr. Lu. Well, from my standpoint, on this particular 
problem what we need to do is an extensive survey of the 
objects in our own solar system. We know the locations and 
trajectories of the million nearest stars because our 
telescopes can look away from the Sun. We do not know the 
locations and trajectories of the million nearest asteroids, 
and yet those things hit the Earth sometimes. And I think that 
is a big, gaping hole, and our organization is working with 
NASA to fill that hole.
    And I think that is tremendously exciting not just simply 
from the preventing-death standpoint, which is obviously a 
wonderful thing, but from the exploration aspect of it and the 
inspirational aspect of it. Because, again, I think a 
demonstration that humanity can work together to go out there 
and do something incredible--changing the Solar System to 
prevent our planet from being hit is an incredible 
demonstration of science, technology, mathematics, astronomy, 
and all the things that make our country great.
    Senator Cruz. Are there concrete steps that, in your 
judgment, would be prudent, beyond launching the Sentinel 
satellite that you are working on, that we should be taking in 
order to be aware of the potential risks?
    Dr. Lu. Well, in the meantime, obviously NASA is running 
its own searches, and those need to be supported.
    They also just began supporting a telescope system called 
ATLAS, which is just at a couple million dollars. It is a 
fairly inexpensive system. What it is basically going to do is 
look for asteroids just before they hit, not to be able to 
prevent their impact, but potentially to be able to evacuate an 
area. So you might get a day or 2 or 3 notice before something 
hits. And the sole purpose there would be to simply, you know, 
get out of the way, to the extent you can. And I think that is 
a great program. And it involves lots of small observatories 
around the world and students working on it, and I think that 
is a wonderful thing.
    Dr. Green. Now, from my perspective, let me build a little 
bit on what Ed said. That is, indeed, we have methodically had 
an observation program in place from the ground. We have also 
used other space assets. One is the WISE mission, which was an 
astrophysics infrared mission, that had a particular orbit that 
made it appealing to be used to look for near-Earth objects. 
That was quite successful.
    That really was the proof of concept for that next step, 
and that next step is, indeed, as Ed mentions, a survey, an 
infrared survey. So we are working with Ed and taking that 
step.
    In addition, we have a really aggressive program to uncover 
much more of the characteristics of these bodies. We need to 
know those. As Ed mentioned, their compositions are very 
different. Some are iron, and they pack more of a wallop. So we 
need to go out and we need to understand other aspects of that 
that would feed into a mitigation strategy.
    That is one of the reasons why OSIRIS-REx, the next mission 
that we are going to do from a science research point of view, 
is also going to help us inform a potential mitigation 
strategy.
    So we have in place a methodical program that we need to 
continue to work on and execute over this next decade.
    Senator Cruz. And what is our ability in terms of a near-
Earth object that is not that near to determine the composition 
of that particular object?
    Dr. Green. Well, it can be done in a variety of ways. We 
have opportunities to hit it with radar. Radar is incredibly 
important. We have facilities in Puerto Rico that we use, 
National Science Foundation, that we work with on that, in 
addition to our Goldstone radars. This enables us to get ideas 
about surface composition in a small way. We also from the 
ground make spectral observations. Indeed, from space, even 
several important points in the infrared will tell us a lot 
about its composition. So, from a scientific point of view, we 
are doing a lot in that particular area, and that is helping us 
classify these and understanding their origin.
    Senator Nelson. Dr. Johnson-Freese, you are constantly 
trying to get people to understand the relevance of our space 
program. There would be nothing like focusing the mind than 
survival with one of these things heading toward us.
    What about these and other threats, to protect life on 
Earth and protecting our astronauts, with all of the collisions 
that we find going on out there with space debris? How are we 
going to get the human space exploration to be conveyed to the 
American public just what is at stake here?
    Dr. Johnson-Freese. I think that goes back to Bruce Willis 
and ``Armageddon.'' And I am all for Bruce Willis testifying, 
don't get me wrong, but after that movie came out I was part of 
a project called ``Armageddon: Fact and Fiction.'' And what 
that movie did was basically convince the American public that 
if anything bad happened, people would get in the shuttle and 
go fix it. It was myth, it was not reality.
    I think what we need to do is get far more of the 
information of the kind that Dr. Green and Dr. Lu have conveyed 
today to the American public. When I talk about it in class, 
when I talk about NEOs in class, the overwhelming response of 
my students is, ``I don't know anybody who ever died from a 
NEO. I know people who have died of cancer, traffic accidents, 
but nobody I know has died from a meteorite.'' And this gets 
into, again, the idea that we need to convey more of the fact 
and separate it from the fiction that the movie industry has 
really convinced much of the American people, that we are all 
over it, we can take care of this.
    So I think there needs to be--exploration and vision and 
inspiration is wonderful and has to be a component of our space 
program. But I think we need to get much better and much more 
aggressive at conveying the risks and the benefits and the 
self-interest in not just continuing but expanding the space 
program.
    Senator Nelson. Well, the American people are certainly 
appreciative of the conveniences----
    Dr. Johnson-Freese. Absolutely.
    Senator Nelson.--that they have every day, but do not know 
the connection, as Mr. DalBello has said, that all of these 
conveniences happen to be space-based, one way or another.
    Now, you take--that is why I ask about solar explosions, 
which is a nuclear explosion on the surface of the Sun. It 
emits radiation. Unless satellites are safe or they are within 
the magnetic sphere surrounding the Earth that would repel this 
radiation, there is a possibility they are going to be knocked 
out.
    Let's take another scenario. What about a rogue country 
like Korea or Iran, if they get a nuclear weapon--which we 
certainly hope and it is the United States' intention that they 
don't. But what if they put it on one of their rockets in North 
Korea, sent it up at altitude, and exploded a nuclear weapon? 
That would have some rather serious consequences, wouldn't it, 
Mr. DalBello?
    Mr. DalBello. It would be a very, very bad day for 
satellites, yes.
    Senator Nelson. Explain that.
    Mr. DalBello. The radiation environment----
    Senator Nelson. Explain that so our audience will 
understand it.
    Mr. DalBello. Actually, we went back--when there was upper-
altitude testing previously, we did have evidence that the way 
it energizes the orbits also interferes with the electronics of 
the satellite. And depending on where it is in altitude and 
which portion of the orbit you are in--obviously, satellites at 
geostationary orbit, which are 23,000 miles away, are a little 
bit safer. Satellites in lower-Earth orbit would be saturated 
soon and would probably die, because the electronics would be 
saturated by the energy released from the nuclear explosion.
    So a high-altitude/near-space explosion could have a very 
catastrophic effect on many of the satellites we rely on for 
weather, early warning, imagery, and other very critical 
functions.
    Senator Nelson. Dr. Lu, what would that do to our 
astronauts on the Space Station?
    Dr. Lu. It clearly wouldn't be good. You know, I have had 
the experience of being told to take shelter on board the 
International Space Station because of a large solar flare. 
That happened in 2003, and it has happened a few times since. 
But, you know, these levels of radiation could be much higher.
    Senator Nelson. Senator Cruz?
    Senator Cruz. I am good.
    Senator Nelson. Staff?
    Mr. DalBello, your company has over 50 satellites in orbit.
    Mr. DalBello. Correct, more than 50 that we own. We fly 
over 70 satellites total because we also fly satellites for 
other operators.
    Senator Nelson. How do you build the risk to these 
satellites into your business model?
    Mr. DalBello. Well, planning for a fleet of that size means 
that you are always doing several things. First of all, you are 
always building new satellites. You are always planning the 
launch of those satellites. And, again, this is well beyond the 
topic of discussion today, but launch is still a problematic 
area for us. We wish the industry were much more robust and 
reliable. We welcome the entry of SpaceX and other new entrants 
into the marketplace. But it is still a challenging and 
expensive component.
    So you are obviously building satellites, you are preparing 
to launch those satellites, and you are managing your fleet by 
moving satellites around in orbit in a way that, in the past, 
actually, we really didn't do.
    Typically, in the past, we would put a satellite in one 
place, and it lived and died in that orbital location. Now it 
is much more dynamic, and we are constantly grooming the 
fleets. We move satellites to meet demands. For example, when 
the war in Iraq started, we actually moved two entire 
satellites to the Middle East to accommodate the increase of 
traffic in the region.
    So it is a really dynamic equation, and so we do 
occasionally get anomalies. And when something bad happens--
unfortunately, we lost a brand new satellite a few weeks ago 
when the launch vehicle failed, the sea-launch vehicle failed. 
And that satellite was supposed to supply a lot of services. 
One was a military component in the UHF band, but it was also 
supplying a lot of television service to Latin America. And so 
we have to scramble to try to find replacement capacity. 
Sometimes we can find that in our own fleet, and sometimes we 
have to go to our colleagues and competitors to get that kind 
of capability.
    So the same thing applies more generally to any effect 
which perturbs the fleet. You know, there is not a whole lot of 
excess capacity in the sky, so it requires a creative and 
constant maintenance of that capacity and understanding where 
our requirements are.
    Senator Nelson. The vote has started, so we will wrap up in 
5 minutes.
    Space debris is really a problem. And I was struck several 
years ago, the deafening silence, lack of criticism of the 
Chinese when they launched their ASAT and blew up a satellite, 
adding tens of thousands of pieces of space debris that are up 
there that just add to the problem. And the problem, even if we 
didn't launch another rocket on Planet Earth, you would have a 
real problem of space debris up there for some period of time.
    So, Dr. Green, what space debris removal technology is NASA 
considering?
    Dr. Green. That is a good question. I know there is a 
variety of studies that they are working on, and I will have to 
get back to you with much more of the details of those studies.
    Senator Nelson. Dr. Johnson-Freese, what are the legal and 
national security barriers to space debris removal?
    Dr. Johnson-Freese. One of the big barriers is that there 
are no salvage laws in space. So if the United States were to 
start an initiative today to clean up all the debris, we don't 
own it, we can't just go and get it.
    And you decide, are you going to get the little pieces? 
That would determine if you are going to use some of the 
techniques like foam to catch it. Or do you go for the big 
ones? And from a legal perspective, if I went after a big piece 
of junk and grappled it and it broke apart, am I then legally 
liable for the damage caused to Rich DalBello's satellites?
    So there are many legal issues to be considered. And then 
the political and geostrategic--if, for example, you are using 
lasers, well, I am certain if the United States decided to 
start using lasers to de-orbit large pieces of debris, that 
would make other countries of the world very nervous, just as 
it would legitimately make the United States very nervous if 
other countries were to do the same.
    So I think there is a host of not just technical problems 
but legal and political problems. But debris and the NEO issue, 
I think, provide opportunities for international 
collaboration--require international collaboration and for the 
U.S. to take a real leadership role.
    Mr. DalBello. Senator, can I make a brief comment about 
that?
    First of all, I completely agree with what Dr. Freese just 
said, but we are very interested in--there is a next generation 
of technologies that is not very far away. We know that DARPA 
is looking at this, we know that NASA is looking at this. We 
know that there are a couple of private sector opportunities 
that people have come to us with proposals.
    We are very interested in the ability to do more in space 
robotically. That is because--for example, we had a satellite 
that went up a couple years ago. One of the antennas didn't 
open, which meant that half of the revenue for the life of that 
satellite was lost. Had you been able to go up, grab that 
satellite, and just tweak that antenna a little bit, you 
probably could have saved the entire mission.
    So we think the technology is there today, and perhaps this 
is a good opportunity for another hearing. We know that DARPA 
has some forward-leaning programs that they are working on. And 
it is a technology that we in the private sector support fully 
and want to participate with government on because it is a 
valuable thing.
    That technology would also allow you, at a minimum, to 
remove very large pieces of debris from the most useful orbits.
    Senator Nelson. Senator Cruz, anything?
    Senator Cruz. I just want to thank all four of you for what 
I think has been a very interesting and productive hearing.
    And I thank the chairman, as well.
    Senator Nelson. Indeed, it has been most enlightening. We 
thank you for your expertise and your testimony.
    Have a great day. The meeting is adjourned.
    [Whereupon, at 11:18 a.m., the hearing was adjourned.]
                            A P P E N D I X

     Response to Written Question Submitted by Hon. Bill Nelson to 
                            Dr. Edward T. Lu
    Question. Dr. Lu, once Sentinel detects the many thousands of 140 
meter asteroids and completes its mission, how do we sustain our 
detection efforts so that we don't lose track of these objects?
    Answer. The orbits of the asteroids detected by Sentinel will be 
valid for approximately 100 years. That means that the complete 
asteroid survey does not need to be repeated for quite some time. 
However, it is important to maintain our capability to do targeted 
follow up observations for particular asteroids of interest that may 
pass uncomfortably close to Earth.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                            Richard DalBello
    Question. We're currently tracking over 21,000 pieces of space 
debris larger than 10 centimeters in diameter, but there may be many 
thousands of pieces even smaller we can't track accurately. Mr. 
DalBello, if NASA and Air Force tracking of space debris weren't 
available to companies like yours today, how would you protect your 
satellites?
    Answer. To avoid collisions in the increasingly crowded orbital 
arcs, companies operating satellites have, for years, informally shared 
position and orbit data amongst themselves. Over time, operators have 
sought better information sources and formed cooperative structures--
like the Space Data Association Limited (SDA)--to ensure that their 
operations were as safe as possible. Over this same period, the U.S. 
Government has slowly developed mechanisms for working with the 
commercial operators. [See Brief Timeline below]. In the absence of 
U.S. Government information, satellite operators would look for 
additional data sources from Europe, Russia, and private sources, 
however, none of these today are as comprehensive as the U.S. 
Government data. Without U.S. Government cooperation, all space 
operators--including the U.S. Government--would face increased risk and 
the potential degradation of the space operating environment. In 
particular, without data on debris, no satellite operators would be 
able to screen their satellites for potential collisions. Given the 
limitations of the current legacy software and processes currently used 
to provide that service and DOD's higher priorities for military space 
operations over supporting commercial or civil space operations, the 
potential exists for threats to be missed. The consequences of a 
collision--particularly in GEO--could be catastrophic. Not only would 
billions of dollars of commercial investment be at risk, but so would 
more than 90 percent of all military communications worldwide.
Brief Timeline of Information Sharing
    It is important to note that accurate space tracking is a non-
trivial task that has changed considerably over time. The following is 
a brief overview of the history of U.S. Government/industry data 
sharing:

  <bullet> In the early-1980s, NASA provided orbital data (called two-
        line element sets or TLEs) to private individuals via mail. In 
        1985, one of those individuals began distributing that data 
        electronically, first via a dial-up bulletin board and then via 
        the Internet. This service became known as CelesTrak. This 
        service still exists today and is operated by AGI.

  <bullet> In the late 1990s, NASA began an informal program, run by 
        their Orbital Information Group, to share this information on 
        space objects gathered by the U.S. Strategic Command 
        (USSTRATCOM) using radars and optical sensors. In 2005, the 
        NASA dissemination was terminated and transferred to Air Force 
        Space Command,.

  <bullet> In 2004, Congress authorized DOD to establish a pilot 
        program called the Commercial and Foreign Entities (CFE) 
        Program. Through the CFE program, the U.S. Government began 
        providing the same orbital data directly to commercial 
        operators.

  <bullet> Recently, USSTRATCOM acknowledged that the TLE data was not 
        precise enough to screen satellites for close approaches and 
        developed a procedure for providing commercial operators with 
        additional information in the form of conjunction summary 
        messages (CSMs). The CSMs are provided to operators whose 
        satellites have been identified as closely approaching another 
        space object. These CSMs contain state vector (position and 
        velocity) and covariance (uncertainty) information computed 
        from other data.

  <bullet> Even with government information, informal information 
        sharing between operators is problematic. Satellite operators 
        use multiple standards to represent the position of a satellite 
        in orbit or an object in space. Many different types of 
        software are used to track and maneuver satellites and the data 
        is stored in a variety of formats. So, even operators who wish 
        to share data can't rely on a single, agreed upon protocol for 
        sharing information. As a result, operators sharing information 
        must maintain redundant file transfer protocols and tools to 
        convert and reformat data so that it is consistent with their 
        own software systems to compute close approaches. While some 
        operators use third party software for predicting close 
        approaches, others write their own software tools. As the 
        number of satellite operators increases, the problem of 
        maintaining space situational awareness grows more complex. And 
        the smallest operators may not be able to afford, or have the 
        technicians, to participate in the data sharing process.

  <bullet> In 2009, the world's leading commercial satellite operators 
        formed the Space Data Association Limited (SDA) to formalize 
        the process of exchanging information and to deal with the 
        overall data compatibility problem. Clearly, the best path to 
        minimize risk in space is for all operators to share what they 
        know about the movement and position of their own satellites, 
        including any planed maneuvers in advance of execution, in a 
        way that all other companies can use.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                        Dr. Joan Johnson-Freese
    Question 1. In Minnesota, GPS technology has transformed many 
industries, making them more efficient. From farmers' tractors that 
steer themselves, to safer and quicker road construction, to navigating 
ships on the Great Lakes, high-precision GPS has made our economy more 
competitive. What can be done to make our network of GPS satellites 
more resilient in the face of solar storms?
    Answer. There are two actions which address your question. First, 
the best protection is prevention. That means funding the satellites 
which observe the solar storms and allow scientists to predict when 
potentially dangerous flares will occur so that actions can be taken to 
protect the GPS satellites from damage. Second, the constellation of 
GPS satellites themselves will need upgrading that incorporates the 
latest technologies for protection, and GPS ``spares'' must be kept on 
orbit as well for inevitable instances when needed.

    Question 2. Additionally, though many utilities are prepared to 
respond to downed power lines in the face of severe weather, what steps 
can we take to prepare the electric grid for the widespread damage to 
key infrastructure that could occur after a massive solar storm?
    Answer. Again, prevention through prediction of the solar storms is 
a solid first step, so that power companies can take necessary 
actions--potentially including shutting down certain facilities--to 
avoid damage.

    Question 3. You mentioned in your testimony that Americans aren't 
sufficiently aware of the work being done by NASA and other 
organizations, that the American public is often unaware of the 
connection of space work to many of the things we rely on a daily basis 
like GPS, credit cards, and weather satellites. Americans, you say, 
largely equate space to exploration. What are your thoughts as to why 
there's a disconnect between what the American public thinks space 
programs do and what they actually do? What can we do to better connect 
the dots?
    Answer. In many instances, ``space'' is taught as a history lesson 
as part of a science curriculum in schools, and often in an outdated 
way. Yet space infrastructure is much like the railroad infrastructure 
or the computer industry--it provides services. So students must be 
exposed to and taught about space differently. Additionally, too often 
media people from whom much of the public gets its information are ill-
informed, and consequently pass along wrong or sensationalist 
information. I heard a local morning radio broadcast recently berating 
NASA over the new accelerated asteroid mission--wrong in their 
information and analysis, and passing it along to a wide audience. My 
advice to do better: education, education, education (perhaps biased 
because I'm a teacher).

    Question 4. You've laid out concrete examples of important 
functions that space programs serve, but in a time of belt-tightening 
across all Federal agencies, how do we strike the right balance of 
cutting programs when necessary, yet ensuring these programs have the 
capabilities to perform?
    Answer. I have stated repeatedly that more consultation between 
policy people and scientists/engineers is needed regarding what 
programs have the potential to reach fruition and be useful, and those 
which are programs of little value and with large science/technology 
question marks. Most of those are in the Defense Department. For NASA, 
programs should expand capabilities, rather than repeating past 
successes. Hence, I strongly support the accelerated asteroid mission: 
it provides a role for both robotics and human spaceflight, will return 
valuable information to protect Earth from an event that is not a 
question of ``if'' but ``when,'' and will offer the U.S. the potential 
to take a global leadership role in space, again. That is important for 
both scientific and geostrategic reasons.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
